Office of
Inspector
General
Semiannual
Report to
the Congress



October 1, 1982 to
March 31,1983
May 1, 1983
an       ~
              ~=~            ~~~r
              Administration General   Washington, DC 20405




 APR 28 1m


Honorable Gerald P. Carmen
Adm; ni strator
General Services Administration
Washington, DC 20405
Dear Mr. Carmen:
The enclosed semiannual Report to the Congress for the six-
month period ended March 31, 1983 is submitted pursuant to
Public Law 95-452, the Inspector General Act of 1978. In
accordance with Section 5(b) of this Act, you are required
to submit this report to the Congress within 30 days, together
with any comments you deem appropriate.
The accomplishments detailed within this report reflect highly
creditable performance by the staff of the Office of Inspector
General. Despite the constraints imposed by budget cutbacks
and personnel reductions, our audit staff recommended savings
of almost $65 million. Collectively, our audit and investi-
gative efforts resulted in sustained savings, as demonstrated
by management commitment, court order/agreement, or actual
recovery of money or property, totaling more than $79.4 mil-
lion. This translates to $8.60 of sustained savings for every
dollar expended by the OIG.
Comparison of the sustained audit savings with the savings
originally recommended yields a rate of return of about 74
percent. This rate indicates to me that the systems for audit
resolution and followup that we developed together are having
the desired effect. I believe that we can anticipate even
better results in the future as the systems become more firmly
established.
During this period the Office of Inspector General made a
number of other contributions which were equally significant,
but less amenable to quantification. Implementation of our
management report recommendations has resulted'in unquantifiable
Agency savings in terms of increased program effectiveness and
operational efficiency. In addition, we broadened our efforts
to minimize fraud, waste and mismanagement through an aggressive
prevention and awareness program.
Page 2



Our accomplishments this period have been made possible by a
high level of cooperation and support on the part of GSA
management. I am confident that your continued support will
allow us to make even greater contributions in future reporting
periods.
Sincerely,


   I},      /' ,// /)     1/.-/
    ' ~t/4---.          (~#1

~
                 \./<

J,OS P'H A. S I CKON
1n pector General
Enclosure
                    Introduction and Overview

INTRODUCTION
This report, which is submitted pursuant to Section 5 of
Public Law 95-452, chronicles the activities of the Office of
Inspector General (OIG) during the period October 1, 1982 to
March 31, 1983. It is the ninth such report since the ap-
pointment of GSA's first Inspector General in 1979.
OVERVIEW
As this report details, the OIG compiled a very solid record
of accomplishments during the six-month reporting period. We
bel ieve these accompl i shments are especi ally meani ngful when
viewed within the larger context of challenges this organi-
zation has addressed since Fiscal Year 1981.
Reductions in appropriations during recent fiscal years have
resulted in concomitant reductions in authorized and actual
staff levels. Also, since Fiscal Year 1981 we have under-
taken a number of internal management improvement projects
which have placed exceptional short-term strain on available
resources. These projects have included: a major internal re-
organization; consolidation and collocation of audit and in-
vestigations field offices; development and implementation of
a comprehensive automated management information system; and,
perhaps most significantly, the introduction of a strategic
methodology for addressing all of the OIG's statutory
obligat'ions.
In the face of these challenges, the performance of the OIG
staff, in terms of dedication, professionalism and produc-
tivity, has been impressive. Our performance indicators
have shown steady improvement since 1981, culminating in the
excellent record achieved during this six-month reporting
period. Recommended audit savings per auditor, for example,
have climbed from $421,000 in Fiscal Year 1981 to $509,000
at the midpoint of Fiscal Year 1983. Similarly, criminal
case referrals per investigator have climbed from 0.81
cases in 1982, the first year such data were compiled, to
2.49 cases.  We are proud of these achievements and look
forward to a continuing record of high productivity within
the OIG.
HIGHLIGHTS OF ACCOMPLISHMENTS DURING THIS REPORTING PERIOD
As indicated above~ our audit and investigative functions
achieved very substantial results during these six months.
At the same time, we made significant contributions by
focusing OIG and Agency attention on the need to prevent
fraud, waste and abuse from occurring in the first place.



                                   i
We also made progress in our effort to assure that internal OIG
operations are efficient and economical. Summaries of specific
accomplishments by topical areas follow.
    1.   Audit Accomplishments
We issued 381 audit reports during this period recommending
savings of almost $65 million. This figure translates to recom-
mended savings of almost $20 for every dollar spent in direct
audit time. Of the reports, 112 addressed internal management
operations, 225 involved GSA's contracting function, and 44
were the result of inspections. Based upon recommendations
in these reports, as well as from recommendations made in
prior periods, Agency management has committed itself to avoid
over $73 million in costs, and to take steps to recover over
$4 million. These sustained costs translate into annualized
savings of $12 dollars for every $1 invested. Additionally,
these audits have resulted in unquantifiable savings to the
Agency in terms of increased program effectiveness and
operational efficiency. The following examples will serve to
illustrate the nature of audit findings during this period.
- In reviewing GSA's project to rehabilitate the Nashville
  Union Train Station into Government office space, we found
  that the large project costs did not justify the small
  benefits to be derived from the renovation. Advised of
  these findings, management is now finalizing plans to
  dispose of the station. This action will avoid the ex-
  penditure of an estimated $12.5 million.
- An audit of the actions taken by GSA to prevent missed
  lease options on rented space revealed that uncorrected
  data in the automated system could have resulted in ad-
  ditional Government costs of $3.5 million. The data
  have now been corrected and actions to prevent the re-
  currence of such situations are being implemented.
- A review of the outleasing of space in the Old Post Office
  Building in Washington, DC, identified numerous deficiencies.
  Based upon management actions in response to our concerns,
  we estimate that $7.7 million will be saved over the life
  of the outlease.
- A postaward audit of a multiple award schedule contract dis-
  closed violations of the defective pricing provisions of the
  contract. Accordingly, we recommended that $324,000 be re-
  covered from the contractor. The majority of our findings
  were sustained by the contracting officer in negotiations,
  and a check for $300,000 was sent to the Government on
  February 16, 1983.
During this reporting period we worked in concert with the
Agency in establishing new and Significantly more stringent
policies and procedures relative to audit followup. W~ are
looking forward to even greater benefits from audits as a
result of these new policies and procedures.
                                 i i
     2.   Investigative Accomplishments
Our investigations staff continued to aggressively pursue
criminal, civil and administrative actions against those
persons or firms who have defrauded or attempted to defraud
the Government. At the close of the previous period, we
reported 563 pending investigative cases, a substantial number
of which (269) involved white collar crime. Of the 378 cases
opened during this period. 135 involved white collar crime.
Our investigative activity resulted in a sharp rise in the
number of criminal referrals made to the Department of Justice
or other authorities for prosecutive action: 119 cases were
referred during this period, as opposed to 38 referrals during
the previous period. OIG investigative activity also resulted
in:
- 43 case referrals accepted for criminal prosecution.
- 28 indictments/informations and 14 convictions on
  criminal referrals.
- 158 case referrals for administrative action and
  22 case referrals for contractor suspension/debarment.
- 17 reprimands, 19 employee suspensions, 3 demotions,
  and 19 terminations.
- 3 contractor suspensions and 11 contractor debarments.

- 814 Hotline calls and letters, 16 GAO referrals, and 8
  other agency referrals.
  11 case referrals to other Federal and State agencies
  for further investigation or other action.
  $154,036 in investigative recoveries.
- $1.8 million in civil settlements and judgments.
- 17 civil case referrals to either the Civil Division of
  the Department of Justice or the appropriate U.S. Attorney.
- 14 Inspector General subpoenas and successful litigation
  of a subpoena enforcement action.

     3.   P evention A
The Inspector General Act of 1978 directs the OIG to assume a
leadership role in the formulation of policies designed to
promote economy, efficiency and effectiveness in Agency oper-
ations and to execute programs directed at both the detection
and prevention of fraud and abuse. Within the current re-
porting period, this Office has increased its prevention role


                                  iii
through a broad program keyed to four elements:
- Defining areas vulnerable to fraud and waste through
  establishment of an inventory of auditable entities,
  analyses of recurring audit and investigative findings,
  and implementation of an operational survey program;
- Anticipating problems with proposed systems and trans-
  actions, and addressing them through OIG preaward
  advisory reviews and OIG participation in automated data
  processing (ADP) design projects;
- Educating GSA employees, through Integrity Awareness
  Briefings. to the potential for waste, fraud and abuse
  and their personal responsibility for reporting such
  matters to the OIG; and
- Communicating the mission and activities of the GIG,
  through careful followup on Hotline complaints, Hotline
  publicity, and participation in projects of the Pres-
  ident's Council on Integrity and Efficiency.

     4.   Internal OIG Management Improvements
During the past six months, a number of actions aimed at in-
creasing the efficiency and economy of OIG operations continued
to progress according to established milestones. Among these
were the further development of our integrated audit planning
system and the expanding role of our computerized information
system for tracking the accomplishment of audits as well as
investigative cases. The first series of internal critiques
of audit reports has been finished as a part of our effort
to assure high quality in these reports, and procedures are
under development for reviews of OIG field offices to commence
during the next period.

STAFFING AND BUDGET ISSUES
Although we are proud of our accomplishments during this re-
porting period, it must be recognized that the level of re-
sources currently authorized for the OIG will not permit
adequate, long-term audit and investigative coverage of GSA's
programs. A detailed discussion of our concerns appears in
Section I (page 2) of this report.




                                  i   v
                         Table of Contents



INTRODUCTION AND OVERVIEW                             i

REPORTING REQUIREMENTS                               vi

SECTION    I - ORGANIZATION, STAFFING AND BUDGET      1
SECTION II - AUDIT ACCOMPLISHMENTS                    3

  A.   Summary of Accomplishments                     3
  B.   Significant Problems, Abuses, Deficiencies     8
       and Recommendations for Corrective Action
       During the Current Reporting Period
  C.   Audit Resolution and Followup                 19
  D.   Unreasonable Refusal of Information           28
       or Assistance

SECTION III - INVESTIGATIVE ACCOMPLISHMENTS          29
  A.   Summary of Accomplishments                    29
  B.   Unreasonable Refusal of Information           37
       or Assistance

SECTION IV - REVIEW OF LEGISLATION AND REGULATIONS   38
  A.   General                                       38
  B.   Significant Comments                          38

SECTION V - OTHER ACTIVITIES                         40

  A.   Prevention Activities                         40

  B.   Projects Sponsored by the President's         44
       Council on Integrity and Efficiency
  C.   OIG Internal Management Initiatives           45


APPENDIX     I   - AUDIT REPORT REGISTER             47

APPENDIX    II   - INSPECTION REPORT REGISTER        80

APPENDIX III     - DELINQUENT DEBTS                  84

                                      v
                        Reporting Requirements

The table below cross-references the reporting requirements
prescribed by the Inspector General Act of 1978 to the specific
report pages on which they are addressed. Additionally, the in-
formation requested by the Congress in Senate Report No. 96-829
(dated June 23, 1980) relative to the 1980 Supplemental Ap-
propriations and Rescission Bill is also cross-referenced
to the appropriate page of the report.


            SOURCE                             PAGE NUMBER

Inspector General Act
1.   Section 4(a)(2) - Review of
     Legislation and Regulations                 38-39
2.   Section 5(a)(1) - Significant                8-18
     Problems, Abuses, and Deficiencies          31-34
3.   Section 5(a)(2) - Recommendations            8-18
     With Respect to Significant Problems,
     Abuses and Deficiencies
4.   Section 5(a)(3) - Prior Recommendations     23-28
     Not Yet Implemented
5.   Section 5(a)(4) - Matters Referred to          31
     Prosecutive Authorities
6.   Section 5(a)(5) and 6(b)(2) - Summary          28
     of Instances Where Information Was             37
     Refused
7.   Section 5(a)(6) - List of Audit             47-83
     Reports

Senate Report No. 96-829
1.   Resolution of Audits                        19-20
2.   Delinquent Debts                            84-85




                                   vi
         Section I - Organization, Staffing and Budget

The GSA Office of Inspector General (OIG) was established pur-
suant to Public Law 95-452, the Inspector General Act of 1978.
As currently configured, the Office is divided into five major
organizational elements which function cooperatively to perform
the missions legislated by the Congress.
ORGANIZATION
The five functional elements of the Office are:
     - Office of Audits, which provides comprehensive internal
       (management) and external (contract) audit coverage
       as well as professional/technical reviews of Agency
       contracts and operations (inspections).
     - Office of Investigations, which manages a nationwide
       program designed to detect and investigate illegal
       and/or improper activities involving Agency programs,
       personnel and operations.
     - Office of Policy, Plans and Evaluation, which provides
       centralized planning and assessment services, including
       internal evaluations of OIG operations.
     - Office of Counsel to the Inspector General, which
       provides independent legal counsel and technical
       assistance.
     - Office of Executive Director, which provides centralized
       administrative and management support services, in-
       cluding data systems support to other elements of the
       OIG.
OFFICE LOCATIONS
The Office of Inspector General is headquartered in Washington,
DC at GSA's Central Office building. We maintain field
audit and investigations offices in each of GSA's 11 regions.
These are located in Boston, New York, Philadelphia, Atlanta,
Chicago, Kansas City, Ft. Worth, Denver, San Francisco,
Auburn and Washington, DC. In addition, we maintain inves-
tigations offices in Los Angeles, Cleveland, and St. Louis.
We are currently in the process of establishing an audit and
investigations office in San Juan, Puerto Rico.
STAFFING/BUDGET
The approved Fiscal Year 1983 budget for GSA's Office of
Inspector General is $18.5 million. While this budget pro-
vides for an approved staffing level of 466 full-time equiv-
alent (FTE) positions, full-year funding allows for only
436 FTEs. As of March 31, 1983, actual on-board staffing
was 406. We are actively recruiting in order to bring our
on-board strength to the level for which we are fully funded.
Over the past year, reductions in appropriations and staffing
have had an enormous impact on this Office's ability to
function at a level which we view to be acceptable. A dis-
cussion of our concerns follows.
STAFFING/BUDGET ISSUES
We first alerted the Congress to our concern over the effects
of reduced appropriations in our report for the period ending
September 30, 1982. Authorized staffing has been reduced from
569 FTE positions in Fiscal Year 1980 to a current level of
only 466. Moreover, approved funding for Fiscal Year 1983 is
sufficient to cover only 436 FTE positions.
OUY' inventory of auditable GSA entities conservatively identifies
a need for 275 staff years of effort to provide adequate coverage
of internal agency operations. Current authorized levels allow
us to allocate only 188 staff years to this activity. Similarly,
insufficient staffing in our external (contract) audit program
has resulted in the loss of significant opportunities for sub-
stantial cost avoidance and recoveries. For example, we currently
have resources to audit 125 of the 5,500 contracts within the
Multiple Award Schedule Program each year, and these audits
yield approximately $17.5 million annually in cost avoidance/cost
recovery. We have estimated that 280 such contracts could be
audited, with similar opportunities for savings, with the ad-
dition of only 31 auditors to this program. There are other
areas within the contract audit program which could potentially
provide similar long-term benefits to the taxpayer. However,
definition of our resource needs in those areas awaits
completion of the OIG's inventory of GSA contracts and solic-
itations, which will define the universe of contracts and pro-
curement actions requiring audit.
The effect of reduced staffing on our investigations program has
been equally serious. Neither the workload nor responsibilities
of the program have diminished. Indeed, increased emphasis on
complex civil recovery cases imposes greater and previously
unforeseen resource requirements on this program. However,
staff allocated to this program has been reduced from 130 FTEs
to 121 FTEs. Moreover, funding is available to support only
105 positions at this time. At the 130 level, we were capable
of referring 60 percent of our caseload for prosecutive con-
sideration or administrative action within 90 days of case
initiation. At our present level of funding, only 36 percent
can be referred within 90 days.
We believe that prompt action is needed to rectify these staffing
and funding shortfalls. To this end, we have already approached
the Administrator of GSA and the Office of Management and Budget.



                                 2
                     Section II - Audit Accomplishments

A.        SUMMARY OF ACCOMPLISHMENTS
During the six-month period ended March 31, 1983, the Office
of Inspector General issued 381 audit reports, including 13
audits performed by other agencies. This figure is consistent
with the number of reports issued during the previous six-month
period. A listing of individual reports can be found in
Appendices I and II to this report.
Collectively, these reports recommend savings of almost $65 mil-
lion, which is comprised of over $57.2 million in recommended
cost avoidance and over $7.7 million in recommended cost re-
coveries. These figures translate to recommended savings of
almost $20 for every dollar spent in direct audit time. In
addition, our audit recommendations resulted in unquantifiable
savings to the Agency in terms of increased program effectiveness
and operational efficiency.
Based on recommendations in these reports, as well as from rec-
ommendations made in prior periods, management has committed
itself to avoid over $73 million in costs, and to take steps
to recover ov~r $4 million. These sustained costs translate
into annualized savings of $12 for every $1 invested.
These figures compare favorably with the results achieved during
the last period. While management committed itself to avoid
$42 million last period, commitments during the current period
exceeded $72 million. Sustained recovery recommendations are
approximately equal to those of the last period.
Table 1 presents a summary of recommended savings by type of
review.

                      TABLE 1.     SUMMARY OF RECOMMENDED SAVINGS
     Type of Review              No. of Reports      Recommended Savings
     Contract Audits                  225              $27,479,203
     Internal Audits                  112               34,894,491
     Inspections                       44                2,604,243

            TOTALS                    381              $64,977,937
     1.    Contract Audit Accomplishments
We issued 225 contract audit reports during the period resulting
in recommended cost recoveries and cost avoidance of almost
$27.5 million. Thirteen of these audits, involving recommended
cost avoidance of $180,296, were performed by other agencies.
Another two audits, involving recommended cost avoidance of

                                            3
  $146,414, were performed by our staff but involved non-GSA
  contracts. Table 2, which presents a breakdown of these costs
  by type of audit, shows that audits of contractor claims re-
  sulted in the largest payback in terms of dollars reviewed.
  In fact, we questioned over 73 percent of the dollars reviewed.




AUDITS BY OTHER AGENCIES
Initial Pricings           9   $ 13,094,130   $   180,296   $
Others                     4     4,118,118
Subtotal - Audits
by Others              13      $ 17,212,248   $   180,296   $   -0-

TOTAL AUDITS           225     $263,379,106   $22,017,069   $5,462,134

TOTAL COSTS
RECOMMENDED                                   $27,479,203
(Avoidance and Recovery)



                                     4
In terms of contract audits settled this period, the amount
of total costs sustained represents more than twice the amount
achieved last period. Table 3, which provides settlement amounts
on those audits performed by GSA and GSA audits performed by
other agencies. shows that over 65 percent of our recommendations
for cost avoidance and 28 percent of our recommendations for cost
recovery were sustained in negotiations. While we are encouraged
that overall almost two-thirds of our recommendations are being
sustained, we are working to improve this rate. Recent policy
changes calling for increased coordination between contracting
officer and auditor as well as the Agency's new audit resolution
policy should serve to increase settlement amounts.


              TABLE 3. SUMMARY OF TOTAL COSTS SUSTAINED ON
               CONTRACT AUDITS SETTLED DURING THE PERIOD

                          AVOIDANCE                      RECOVERY
   REPORT         Recommended     Co st s       Recommended       Costs
ISSUE DATE          Costs       Sustained          Costs       Sustained
FY 79 GSA     $      223,913   $       99,516       $ 794,555   $
FY 80 GSA            446,922          358,037         840,426         396~020
Ot her               312,403          243,048

FY 81 GSA         22,463,291       16,221,128       3,284,628         204,031
Other                159,374          109,061
FY 82 GSA         30,356,243       18,210,665       2,773,233       1,290,851
Ot her               439,476          191,022
FY 83 GSA         4,533,769        2,872,730          416,334         383,061
Total-GSA     $58,024,138      $37,762,076      $8,109,176      $2,273,963
Total-Other   $      911,253 .$       543,131   $               $

TOTAL         $58,935,391      $38,305,207      $8,109,176      $2,273,963
              =-====-==        =======.===      ===-====='==    -===.'=======

TOTAL COSTS
SUSTAINED
(Avoidance and
Recovery)                      $40,579,170




                                         5
  2. Internal Audit Accomplishments
During the current reporting period, the Inspector General
issued 112 internal audit reports involving recommended cost
avoidance of over $34 million. We also recommended cost re-
coveries of over $721,000. Table 4 summarizes these audits
by GSA organizational element and shows the amount of cost
savings recommended.
The data reflect that almost 91 percent of our recommendations
for cost avoidance were made within the Public Buildings Service.
Three of these audits, which are highlighted as significant audits
in Section lIB of this report, account for almost $24 million of
our recommendations for cost avoidance.


                TABLE 4. SUMMARY OF INTERNAL AUDIT REPORTS

                       No. of Percentage       Recommended    Recommended
                       Reports of Total           Cost           Cost
 Program Area          Issued   Audits          Avoidance      Recovery
 Plans, Programs         11        10      $     2,014,970    $712,100
 and Financial
 Management
Information               8         7              300,635
Resources Management
 Federal Property         3         3                1 ,040
 Resources Service
 Federal Supply          15        13              722,000
 and Services
 National Archives                  1
 and Records Service
Public Buildings         73        65           31,134,700       9,046
Service
 Organization and
 Personnel
TOTALS                  112       100      $ 34,173,345       $721,146

Internal audits resolved during the reporting period resulted
in sustained cost avoidance of over $34.2 million and sustained
cost recovery of $712,100.




                                    6
    3. Inspection Accomplishments
During the reporting period, the Inspector General issued 43 in-
spection reports covering 181 GSA contracts with a value of over
$90 million. Total recommended cost avoidance resulting from
these inspections amounted to almost $1.1 million; total recom-
mended cost recoveries amounted to $1.5 million. Table 5 shows
the reports issued and results by program area. In addition, we
assisted the Inspector General, Department of Commerce, in an audit
of the Patent Review Process. The report prepared by our staff rec-
ommended cost avoidance of $439,000 and cost recovery of $35,000.
In addition to these inspections, the staff participated in nu-
merous multidisciplinary reviews in conjunction with other audit
divisions and/or various investigative units. The results of such
reviews are included in the data for the other OIG elements.

                    TABLE 5. SUMMARY OF INSPECTION RESULTS
                   No. of        Tot a 1 Dollar   Recommended   Recommended
                   Reports         Value of          Cost          Cost
Program Area       Issued         Contracts        Avoidance     Recoveries
Public Buildings
Service
 Leasing             3       $      617,060       $             $      35,523
 New Construc-       4           33,626,449           809,333         434,574
 tion
 Repairs and
 Alterations        23           16,221,594                            44,203
 Buildings
 Operations          2              499,415
 Energy                                               106,000
Federal Supply
and Services         9           23,246,315           164,383       1,010,227
Information
Resources
Management           1           16,000,000

TOTAL               43*      $90,210,833          $1,079,716    $1,524,527
*Includes two reports which were issued late in the last re-
 porting period and were not included in those figures. Neither
 involved recommendations for cost avoidance or cost recovery.
Inspection reports resolved during the period resulted in a
management commitment to avoid the expenditure of $809,333 and
to seek the recovery of $1,040,543.
                                          7
B.   SIGNIFICANT PROBLEMS,   ABUSES~       DEFICIENCIES AND RECOMMENDATIONS
     FOR CORRECTIVE ACTION
The results highlighted in the paragraphs which follow are
presented by GSA program area. Where possible, management1s
response to the report and the status of the recommendations
are provided. For those reports issued late in the reporting
period, this information was not available at the time of
publication.
     1.   Space Management
Controls Over Costs for Repairs, Alterations, and Improvements
to Leased Space
Each year, GSA's Public Buildings Service (PBS) expends sub-
stantial sums of money for repairs, alterations and improvements
to leased space. In the past, expenditures for such lease
alterations have been as great as $36 million annually_ In
order to determine the adequacy of controls in this area, we
analyzed prior OIG and General Accounting Office (GAO) reports
to consolidate the conditions and findings which might indicate
systemic problems affecting the program.
We found that policies and procedures were inadequate to ef-
fectively control the cost of repairs, alterations, and
improvements. The primary reason resided in the treatment
of alterations as being exempt from the Federal Procurement
Regulations and the Public Buildings Act prospectus requirement.
Under these circumstances, we felt that there was little as-
surance that the Government was obtaining the most reasonable
prices available.
Accordingly, we recommended on January 26, 1983 that the Com-
missioner of PBS: (1) clearly indicate in all policies and
handbooks that lease alterations are subject to the Federal
Procurement Regulations whenever the cost of alteration is
not included in rental payments. and (2) ensure that audits
are requested for all lease alteration and lease construction
contract modification proposals in excess of $100,000.
The Commissioner concurred in our recommendations.

Norfolk, Virginia Buildings Manager Needs to Improve Internal
Controls
The buildings management program represents one of the areas
in which fraud was detected in the late 1970 1s. As part of
our ongoing effort to prevent and detect fraud, waste and abuse,
we review this program on a regular basis. On January 27. 1983,
we issued a report detailing the results of our review of the
procedures and internal controls followed by the buildings
manager in the Norfolk, Virginia area.


                                       8
The problems surfaced by this audit, although specifically
related to the Norfolk review, are typical of the findings
disclosed by the 11 other buildings management reviews con-
ducted over the last six months.
Overall, we found that the buildings manager needed to improve
controls over the procurement and documentation of small pur-
chases; the accountability for operating and expendable equip-
ment; the verification and reconciliation of monthly office
costs; and the use of automated manage~ent reports. Therefore,
we recommended that field office employees be instructed in
techniques for procuring and documenting small order purchases;
office costs be verified by both employees and the buildings
manager; and a complete inventory of all operating and expendable
equipment be conducted. Furthermore, we recommended that field
office efficiency be increased through educating employees on
the need for and use of automated reports.
The Regional Administrator agreed with our recommendations.
As of the date of this report, the Commissioner, PBS, had
not responded to the audit report.

Controls Over Lease Renewal Dates
In our last Report to the Congress, we identified several inci-
dents where missed lease renewal options could result in ad-
ditional Government costs. This audit was initiated to determine
whether corrective actions subsequently taken by PBS were adequate
to prevent the recurrence of missed renewal options.
Our review disclosed that although PBS required all GSA regions
to reconcile the information contained in the Public Buildings
Service/Information System (PBS/IS) with the individual lease
files, the adequacy of such reviews in two regions was ques-
tionable. In these regions, the PBS/IS was found to contain
erroneous lease renewal date information even after the recon-
ciliation was performed. In one of these regions we estimated
that GSA could have incurred additional rental costs of about
$3.5 million due to uncorrected data. Furthermore, we found
that each region had different procedures for managing lease
renewal dates and, in spite of past problems, PBS had not
developed and implemented nationwide procedures.
Accordingly, on March 28. 1983, we recommended that the
Commissioner of PBS develop standard procedures for use
nationwide to manage and control lease data, and.that periodic
regional reviews be performed to ensure that such procedures
are fully implemented.
The Commissioner agreed with the findings and recommendations
contained in the draft report. We are awaiting his response
to the final audit report.



                                    9
Implementation of the Public Buildings Cooperative Use Act
We evaluated the management and operation of the program estab-
lished by GSA to implement the Public Buildings Cooperative
Use Act of 1976. This Act requires GSA to outlease surplus
Government space whenever possible and to acquire, through
lease or purchase, historic buildings to fulfill Government
space needs whenever feasible and prudent. As of June 30, 1981,
GSA had acquired 14 historic buildings, leased parts of 45
historic buildings, and entered into 97 outleases.
Our review disclosed a number of problems associated with
the implementation of the Act. The most significant finding
was that legislative and economic restraints prevent GSA
from effectively implementing its provisions. A second
major problem area, relating to outleasing for commercial
mall development, is discussed in detail in our report on
the Old Post Office Building which follows.
Our report confirmed past reviews performed by both the GAO
and various GSA study groups which identified significant
legislative and economic restraints, especially in regards
to the acquisition of historic buildings. In some instances,
such acquisitions were not economically feasible considering
the limitations imposed by the Economy Act of 1932. In other
cases, historic buildings did not meet Federal fire safety,
energy conservation and handicapped facility requirements.
Finally, the planning for historic buildings often could not
be accomplished without assurance of funding availability,
i.e., plans for obtaining space are usually made three years
before funds are available.
In responding to the draft report, the Commissioner of PBS
stated that while management recognizes the impact of existing
constraints on the acquisition of historic buildings, he did
not believe that relaxing standards or cancelling GSA's par-
ticipation in the program was necessary. He also indicated
that the policy and procedures needed to correct the problems
identified in this report would be included in the new out-
leasing handbook scheduled to be released in early 1983.
We recommended on March 25, 1983 that PBS review GSA's expe-
rience in the acquisition and renovation of historic buildings,
as well as past studies made by GSA and GAO, to identify changes
necessary to ensure a workable and meaningful historic buildings
program. After examining all the possible solutions, including
cancellation, GSA should propose legislation that would clarify
the intent of the historic buildings program and enhance GSA's
ability to carry it out.

Outleasing of Space in the Old Post Office Building
This audit report summarizes some of the major events which oc-
curred in the outleasing of the Old Post Office Building in

                                 10
Washington, DC, and provides an analysis   of the actions taken
by management in response to some of our   concerns. The
out1easing action involved approximately   56,500 square feet
of net usable space for development into   a commercial mall.
The review was initiated in response to a November 1981 request
from the Assistant Regional Administrator, Office of Public
Buildings and Real Property, to provide advisory assistance to
the lease negotiation team prior to the signing of a Memorandum
of Understanding (MOU). The MOU described the business terms of
a lease to be signed at a later date.
Our review identified 23 significant legal and business issues
in the MOU and we therefore recommended that it not be signed
until these issues could be resolved. However, management
ignored our recommendation and a similar one from Regional
Counsel and executed the MOU on February 4, 1982. Our concerns
centered around the fact that the MOU: (1) lacked adequate
terms and conditions to protect the Government; (2) contained
other provisions contrary to public policy or statute; and
(3) gave the developer a contractual basis to claim significant
damages in the event a formal lease was not executed. The mat-
ter was brought to the attention of the Associate Administrator
for Operations and the Regional Administrator, National
Capital Region, who initiated appropriate corrective actions
on most items. Subsequently, we closely monitored implementation
of the corrective actions and continued to work with the
negotiation team.
Ultimately, management negotiated major changes which sig-
nificantly improved the terms and conditions of the formal
lease. This lease, which was signed on October 4, 1982,
corrected all but two of our major concerns. These were:
(1) the lack of an independent evaluation of the proposed
outleasing agreement by a qualified expert in this spe-
cialized area, and (2) the lack of a termination provision.
No recommendations were made in our March 30, 1983 report
since the lease had already been executed and management had
implemented certain corrective actions. These actions could
result in cost avoidances of $7.7 million over the life of
the outlease. Recommendations to prevent the recurrence of
these problems with future out1eases are contained in our
report on implementation of the Public Buildings Cooperative
Use Act of 1976, which was discussed previously.

     2.   Construction Management
Termination of the Nashville Union Train Station Rehabilitation
Project
As discussed previously, the Public Buildings Cooperative Use
Act of 1976 (Cooperative Use Act) authorizes GSA's Administrator
to acquire and utilize space in suitable buildings of historic,

                                    11
architectural! or cultural significance and encourages the
location of commercial, cultural, educational and recreational
facilities within public buildings. These provisions have
provided the impetus for GSA to become actively involved in
the renovation of many historic structures, including the
conversion of the Nashville Union Train Station into Federal
office space.
We initiated a review of this project to determine whether:
(1) additional Government-owned space was required in the
Nashville area; (2) renovation of the station represented
the best means of acquiring additional office space; and
(3) the project could be completed within established funding
limitations. We found that the conversion was economically
unsound and could not be completed within the approved funding.
Furthermore, we determined that there was no immediate need
for additional office space in the Nashville area. Accordingly,
on November 30, 1982 we recommended that the Commissioner, PBS,
in cooperation with the Administrator, should (1) advise the
Congress that GSA cannot complete all of the work contained
in the $7.2 million prospectus, and (2) propose project
termination due to the large costs involved and the small
benefits to be derived.
The Commissioner, PBS, concurred in the audit recommendations
and final plans to dispose of the train station are being
formulated. We estimate that through this action the
Government will avoid the expenditure of $12.5 million.

Audit of Damages for Increased Construction Costs
We audited a contractor's $1.2 million claim for increased
costs allegedly resulting from Government-caused delays
while the firm was performing piping and plumbing work at
the Social Security Administration's Metro-West Building in
Baltimore, Maryland. In our audit report dated October 26,
1982, we questioned $1.1 million in costs arising from:
overstated extended home office overhead costs; unsupported
and unallowable extended job site costs; overstated labor
escalation; unsupported labor inefficiency costs; and
unallowable profit.
Approximately $850,000 of the recommended questioned costs
were sustained in negotiations with the contractor.

Inspection of the Lease/Construction _of a Laboratory Faci1...:L!.i:.
An inspection of the work performed in the construction of a
laboratory facility for the Environmental P otection Agency
revealed that inadequate contract administration and a lack
of technical input in the conceptual, design, and construction



                                     12
phases of the project has resulted and/or will result in Gov-
ernment overpayments and losses of over $1.5 million. We found
that instead of assigning technically qualified individuals to
perform site inspections, negotiate change orders~ and administer
the contract, GSA allowed a leasing specialist to perform these
functions. As a result, over $85,000 in work required by the
lease/construction agreement was not performed; over $113,000
was lost on change orders due to excessively priced items or
inadequate credits; over $45~OOO was paid on change orders for
work already required by the lease/construction agreement;
credits worth more than $104,000 were not obtained on deleted
work; over $525,000 will be lost over the life of the lease
due to excessive energy consumption arising from faulty con-
struction; and unnecessary maintenance costs of over $790,000
will be incurred over the life of the lease due to the sub-
stitution of a less efficient mechanical system and the
negotiation of a maintenance service package which duplicates
the original lease agreement.
Management's response to the draft report indicated concurrence
in the findings and implementation of the major recommendations
with the exception of the development of the internal procedures
that would require such projects to be administered by the Design
and Construction Division. Management's response stated that
implementation of this recommendation would be delayed pending
the issuance of new Central Office guidelines in this area.
Our final report, dated March 31, 1983, recommended that the
Regional Administrator direct the contracting officer to:
(1) require the lessor to correct and/or complete all defects
and omissions. or have GSA perform this work and backcharge
the lessor- (2) in conjunction with legal counsel, determine
the basis for recovery of dentified losses and initiate re-
covery action; (3) conduct a study of the mechanical system
to identify the specific causes of the excessive energy usage;
and (4) develop internal procedures that would require all
special purpose lease/construction projects and major lease
alterations to be administered by the Regional Design and
Construction Division.

Construction of the San Jose Federal Building
At the request of the Associate Administrator for Operations,
we reviewed deficiencies in the construction of the U.S.
Courthouse and Federal Building in San Jose, California.
Specifically, we inspected problems associated with the con-
tractor1s failure to provide shoring to support ,composite
floor beams at certain locations and evaluated the adequacy
of the remedial actions being pursued by regional officials.
We also evaluated the contractor's system and procedures
for shoring subsequent to the identification of this omission.




                                 13
We found that the contractor's failure to provide shoring
first came to light as a result of a site visit by the struc-
tural engineers for the design architect. The inspection
services contractor who originally inspected the work failed
to recognize this contract requirement and enforce it. This
failure resulted from a lack of familiarity with the contract
and a full understanding of its terms.
Our review of subsequent corrective actions pursued by the re-
gion found that they were adequate and appropriate. However,
our review of the contractor's shoring system and procedures
(first used after the omission was disclosed) found them to be
inadequate for a number of reasons. Accordingly, on March 3,
1983, we recommended that: (1) the entire structure be surveyed
to determine whether overstressing is evident; (2) the con-
tracting officer review the overall performance of the inspec-
tion services contractor; (3) regional counsel be apprised
of the shoring problems so that the Government's position is
documented; and (4) both regional counsel and the contracting
officer take action to ensure that delays do not adversely
affect occupancy of this facility_
Management was in general agreement with the findings and
recommendations contained in the draft report. They did,
however, disagree as to the extent of the survey which needs
to be performed. We are awaiting their response to the final
report.

     3.   Procurement of Supplies and Services
Plastic Bag 'Procurement
The Office of Federal Supply and Services procures approx-
imately $14 million worth of plastic bags each year. Our
review of these procurement actions revealed a number of
weaknesses. the most significant of which was GSA's failure
to invoke the economic price adjustment (EPA) clause. This
clause provides for adjustments in contract prices when
specific changes occur in the Producers Price Index. During
our review, we found that the Producers Price Index had
declined during the term of the contracts, yet GSA had not
initiated the downward price adjustments to which it was
entitled. As a result, in our report dated March 22, 1983,
we recommended that these overpayments be recovered from
the contractors.
In responding to our recommendations, management agreed that
$528,000 could be recovered and they are in the process of
doing so now. Management has also revised the EPA clause to
preclude a recurrence of this situation.




                                  14
Alleged Waste in Proposed Carpet Replacement
In response to a Hotline complaint, we reviewed the planned
$1 million replacement of carpeting at the Social Security
Administration (SSA) Service Center in Richmond, California.
The complaint alleged that the proposed replacement of car-
peting was a waste of taxpayers' money because the existing
carpeting was still in good condition.
We found that the carpeting scheduled for replacement did not
exhibit any significant wear, with the exception of certain
isolated areas in exterior corridors. Consequently, we recom-
mended on March 16, 1983 that the Assistant Regional Admin-
istrator for Public Buildings and Real Property: (1) limit
carpet replacement at the Richmond SSA Center to those areas
where replacement is needed; (2) defer total carpet replacement
until general wear is evident; and (3) schedule periodic
shampooing of the carpet to prolong its life.
Management agreed with our recommendations and cancelled the
procurement. In their response to the final report, mana~em~nt
also indicated that they will review similar projects on an
annual basis to verify their validity_

$300,000 Refund Obtained Due to Defective Pricing
We performed a postaward audit of a multiple award schedule
supplier of radio equipment, antennas, and tone/voice paging
systems. The audit, which covered the period of September 1976
to November 1979, found that the GSA had negotiated a discount
rate of 17 percent while the firm's best customers received
an average discount of almost 25 percent. We concluded that
GSA received incomplete and inaccurate pricing data and, had
all the pertinent facts been disclosed, the Government would
have negotiated a discount rate at least equal to that given
to the firm's best customers. Accordingly, on October 27,
1982, we recommended a $324,000 refund in accordance with
the defective pricing provisions of the contract.
The contractor agreed with the majority of our recommendations.
A check for $300,000 was sent to the Government on February 16,
1983.

    4.   Financial Management
Improper Recording of Obligations
A multiregional review of obligations recorded for GSA ap-
propriations found overstatements of about $2.1 million at
the close of Fiscal Year 1981. These overstatements rep-
resented accruals of lease escalation costs after final



                                    15
payments had been made, obligated amounts that lacked
adequate supporting documentation, and obligations made
against completed projects. They occurred due to the
absence of an adequate year-end review of open items, the
low priority assigned to monitoring obligations, and a
failure to deobligate items identified as invalid.
In four reports issued between October and December 1982,
we recommended that: (1) the status of open obligations be
determined through distribution of open item listings to
all GSA activities; (2) accrual accounts be liquidated when
final payment is made for lease escalation costs and no
further accruals are made; (3) lease escalation costs
chargeable to other years be identified and required
adjustments be made; (4) invalid or unsupported open items
be deobligated on a timely basis prior to year-end closing;
and (5) more emphasis be placed on year-end closing pro-
cedures.
Management generally agreed with the recommendations and
initiated appropriate action.

Controls Over Travel Tickets
We initiated a review of the controls used by GSA to iden-
tify unused and partially used travel tickets purchased
with Government Transportation Requests (GTRs). We found
that such tickets were not being promptly identified and that
refunds relative to these tickets were not being processed
in a timely manner. These problems resulted from a reliance
upon administrative controls without corresponding accounting
controls.
On March 30, 1983, we recommended that GSA establish accounting
controls to complement the administrative controls already in
use. We suggested a potential scenario which would place the
responsibility for the cost of the unused ticket with the
traveler until the travel voucher is submitted to GSAls Office
of Finance. Furthermore, recognizing that GSA formulates the
Government guidelines for the use and control of tickets pur-
chased with GTRs, we also recommended that GSA take action
to amend the Federal Property Management Regulations to re-
quire agencies to maintain adequate accounting controls, in-
cluding individual accountability for unused and partially
used airline tickets. We believe such action is necessary
in light of GSA's recent efforts to recover almost $12 million
in ticket refunds due the Government but never claimed by
individual agencies.
In response to the draft report, management took exception to
our recommendations. We reaffirmed them both in our final
report.



                                 16
     5.   Other Significant Audits
FSS-28 System Development Project
We have found audits of systems development projects to be a
valuable prevention tool. This period we initiated a review
of the Self-Service Store Automation Project (FSS-28) which
identified serious intarnal control weaknesses in its design
and operation. We found that the FSS-28 could not generate
reports required by its users and that modification of the
s y s t em top rod uc e s.u c h rep 0 r t s mig ht not be po s s ; b 1 e due to
hardware compatibility problems and inefficient software.
Consequently, the system could not provide line item ac-
countability - the primary purpose for procuring it orig-
inally. Our review also disclosed that funding this pro-
curement through the General Supply Fund revolving fund
rather than direct appropriation was inappropriate.
We recommended on December 13, 1982 that management not pro-
ceed with system implementation until several alternative
solutions to the identified deficiencies were explored. We
also recommended that the General Supply Fund not be used
to fund this procurement unless GSA's Office of General
Counsel rendered a formal opinion authorizing it as a legal
source of funding.
Management has initiated action to implement all of our recom-
mendations. Negotiations were begun with the contractor to
correct all of the system deficiencies at no additional cost
to GSA. This action will result in a $500,000 cost avoidance
over the next five years.

Application of the 1CB System Concept
Since 1973, PBS has mandated open-space planning and Inte-
grated Ceiling and Background (ICB) systems for all new Federal
office buildings and major alteration projects. ICB systems
are designed to provide acoustical privacy in these open-space
offices. We initiated a review of the implementation of the
ICB concept to determine whether the systems were operating
as intended and to assess the extent to which 1CB system
goals have been met.
We found that mandatory application of this concept in building
construction has created customer dissatisfaction and wasted
millions of dollars by requiring the purchase and installation
of materials/equipment without achieving the objective of
speech privacy_ In almost every building inspected. speech
privacy was lacking because one or more system elements were
missing, inoperative, or being used improperly. In others,
additional costs were incurred because offices designed to
meet open-space requirements had been compartmentalized at



                                           17
the request of tenant agencies. In many instances, the
performance of heating, ventilation, and air conditioning
systems of the buildings were seriously impaired due to
the installation of ceiling high partitions in the open-
space area. Moreover, we found that GSA officials have not
aggressively pursued solutions to these problems.
On March 24, 1983, we recommended that: (1) new building
concepts be thoroughly evaluated and tested prior to im-
plementation; (2) background masking systems be installed only
at the expense of agencies requesting such systems; (3) GSA
provide office acoustics training for building managers,
their staffs, and selected tenant agency space managers re-
sponsible for maintaining masking systems; and (4) guidelines
be developed to minimize the future partitioning of open-
space offices (such projects would require approval from the
highest levels of PBS).
Management generally concurred in the findings and recom-
mendations contained in our draft report. We are awaiting
their response to the final audit report.

Floyd Bennett Field Communications System
At the request of the Regional Administrator, we initiated a
review of the Floyd Bennett Field telecommunications system
project. The purpose of the review was to determine whether
GSA had taken measures to ensure that the contractor had
installed a fully operational system in accordance with the
contract specifications, and to evaluate management actions
in response to customer agency complaints.
We found that inadequate and substandard installation of the
system had resulted in serious problems which will mean that
this $400,000 system will have to be replaced. While some
fault for this waste of resources rests with the contractor,
our review disclosed that poor planning by GSA and ineffective
contract administration contributed to the problems.
Recognizing these problems, and aware that GSA will soon be
entering an era in which it will be responsible for many
multimillion dollar telecommunications projects, we recom-
mended on March 23, 1983 that the Regional Administrator
ensure that all future telecommunications projects be
thoroughly inspected by qualified individuals prior to
acceptance. Further, we recommended that steps be taken
to recover some $37,000 in overpayments to the contractor
identified by this audit.
The Regional Administrator agreed with the recommendations
in our draft report. We are awaiting management's response
to the final audit report.



                                 18
C.    AUDIT RESOLUTION AND FOLLOWUP
      1.   Overvi ew
During     the period, GSA's management has been generally responsive
to the     recommendations contained in our audit reports. In most
cases,     implementation is proceeding according to the milestones
agreed     upon by the Office of Inspector General and management.
On December 22, 1982, the Administrator signed GSA Order
ADM 2030.2A which sets forth the policies, definitions, respon-
sibilities and procedures for the GSA audit resolution and fol10w-
up system. This Order tasks the Inspector General and GSA man-
agement officials with the responsibility for promptly resolving
any differences over audit recommendations and findings so that
final resolution decisions can be made within six months after
an audit report is issued.
Tables 6 and 7 provide resolution information for contract and
internal audits. Comparable data are not yet available for ifl-
spections reports, which became subject to systematic followup
requirements only with the promulgation of the aforementioned
GSA Order.

      TABLE 6. AUDIT RESOLUTION AND SETTLEMENT - CONTRACT AUDITS
                    WITH RECOVERY RECOMMENDATIONS
                                    No. of     Recommended
                                    Reports      Recovery
Resolution
Reports to be Resolved as
of 9/30/82
  -Less than 6 months old              22      $10,063,230
  -More than 6 months old                  2        32,373
Reports Issued this Period             30          5,462,134
     TOTAL TO BE RESOLVED              54      $15,557,737
Reports Resolved
  - Issued Prior Periods               24      $10,095,603
  - Issued Current Period              10        2,334,857
     TOTAL RESOLVED                    34      $12,430,460
Unresolved as of 3/31/83*              20      $ 3,127,277
                                                               Sustained
Settlement                                                     Recovery
Final Settlements
  - Issued Prior Periods                   6   $     179,493   $ 75,110
  - Issued Current Period                  6         416,334    383,061
     TOTAL SETTLED                     12      $     595,827   $458,171
*All reports are less than six months old.
                                      19
TABLE 7. AUDIT RESOLUTION AND COSTS SUSTAINED - INTERNAL AUDITS

                       No. of       Reports With           Recommended
                       ReQorts   Recommended Savings         Savings
Resolution
Unresolved as
of 10/1 /82              26                  4         $     1,808,802
Audits Issued
Current Period          11 2             23                 34,894,491
  TOTAL TO BE
  RESOLVED              138              27            $    36,703,293
                                                       .====--========,=



Resolved During
Period
 - Audits Prior          22                  3         $     1,464,871
   Period
 - Audits Current        69              12                 33,575,271
   Period
  TOTAL RESOLVED         91              15            $    35.040,142
                                                       ==="='==----===




Unresolved as            47              12            $     1,663,151
                                                       =====.======
of 3/31/83

                                                       Costs Sustained
Costs Sustained
 - Audits Prior          22                  3         $     1,452,208
   Period
 - Au d it s Current     69              12                 33,487,348
   Period
  TOTAL COSTS            91              15            $    34,939,556
                                                       ======='=
  SUSTAINED


Of the 47 reports which were unresolved at the close of the
period, only 4 reports were six months old or older. One of
these reports involved recommended savings of $343,931.




                                        20
    2.   Implementation Reviews
GSA Order ADM 2030.2A places primary responsibility for
fol10wup on the implementation of resolved audit recom-
mendations with the Office of Audit Resolution, Office of
Oversight. However, the Office of Inspector General reviews
implementation actions on a test basis. These reviews are
called implementation reviews to distinguish them from other
followup actions.
During the period, the OIG conducted 18 implementation re-
views. In 13 reviews, or 72 percent, management had suc-
cessfully implemented our recommendations. Last period,
management had implemented our recommendations in 82 percent
of the reviews conducted.
Because of the emphasis placed on followup, we believe that
the instances where our recommendations were not implemented
are highly significant. For this reason, they are highlighted
in the paragraphs which follow.

Regional Management of the Public Buildings Service/Information
System Needs Improvements
A review of the actions taken to implement the recommendations
contained in this March 24, 1982 report disclosed that four of
our recommendations had not been fully implemented. Accord-
ingly, on March 23, 1983 we reaffirmed our four recommendations.
The results of this review are particularly significant because
Agency tracking officials within the Office of Audit Resolution,
Office of Oversight, had considered the corrective action com-
plete on two of the recommendations we reaffirmed. In light of
our review. these officials have agreed to reverify the status
of all four recommendations.
This audit. which was highlighted in a prior Report to the Con-
gress, is also discussed in the following section addressing
significant recommendations on which corrective action has not
been completed.

Contracting Procedures and Administrative Controls Over Alterations
in Leased Space Need to Be Improved
A review of the actions taken to implement the recommendations
contained in this October 22, 1980 report disclosed that three
recommendations had not been implemented. On February 8, 1983,
we reaffirmed our recommendations to: (1) increase the quality
of reviews of lease files prior to approval of transactions;
(2) require contracting officers to negotiate reductions in
rental payments during extended periods of vacancy; and (3) de-
termine the actions to be taken relative to artwork installed
in one leased location.

                                  21
At the time of publication of this report, management had
not yet responded to our implementation review.

Improvements Needed in Administration of GSA Controlled Space
Our April 22, 1981 audit of GSA's administration of space in
the Washington, DC area found that significant improvements
needed to be made. A subsequent review of the actions taken
to implement our recommendations disclosed that two recom-
mendations had not been fully implemented. On November 8,
1982, we reaffirmed our recommendations to update and maintain
building drawings and to require periodic reconciliation of
space records with building drawings.
On December 9, 1982, the Regional Administrator responded
that the region had encountered problems in implementing the
recommendations. He provided an action plan for the out-
standing recommendations. The Commissioner, PBS, has not
yet responded to the report.

Processing of Federal Buildings Fund Payments
This audit, issued on June 30, 1981, found that controls
over payments made from the Federal Buildings Fund were
inadequate. Accordingly, we made 16 recommendations for
corrective action. On November 12, 1982, our implementation
review found that six recommendations had not been implemented.
These recommendations related to inadequate documentation
authorizing utility service, failure to take prompt payment
discounts, and late payments to vendors.
On December 21, 1982, the Regional Administrator responded
to our report and agreed to implement all of the recom-
mendations.

Administration of Construction Contracts Could Be Improved
Our audit report dated June 23, 1981 made eight recommendations
directed at improving the administration of construction
contracts. Our review of implementation actions found that
our recommendation to institute procedures to assure an
independent review of the accuracy and reliability of Govern-
ment estimates had not been fully implemented.
Although draft procedures had been developed, they were still
under review and no specific target date had been established
for issuance of final procedures. Therefore, on October 13,
1982 we reaffirmed our original recommendation and further
recommended that corrective action be taken in a timely
fashion. These recommendations will remain open until the
procedures have been formalized.


                                 22
    3.   Significant Recommendations Made in Previous Reports
         on Which Corrective Action Has Not Been Completed
Office of Management and Budget (OMB) Circular A-50 requires
agency heads to designate a top management official to oversee
audit followup, including resolution and implementation action.
Within GSA, the Deputy Administrator is the Agency Followup
Official and, as such, is personally responsible for making
final decisions to resolve differences between management
and the Office of Inspector General in a timely manner;
ensuring that corrective actions are taken on resolved audit
recommendations; and ensuring that systems of followup,
resolution and corrective action are documented and in place.
The Office of Audit Resolution, Office of Oversight, acts as
staff to the Agency Followup Official on audit resolution and
implementation matters.
Most of the information for this section was provided by the
Office of Audit Resolution. This information has been separated
into two major subdivisions to draw a distinction between
the reasons for lack of implementation. The first section
details those situations in which corrective action has not
been completed because there is some impediment to either
the resolution or implementation process. The second contains
recommendations which are being implemented according to
established milestones but are not yet fully implemented due
to time considerations.
         a.   Significant Audit Recommendations Which Have Not
              Been Satisfactorily Implemented

Systems Development and Control
Period First Reported:    April 1, 1981 - September 30, 1981
This review found that GSAls Office of Finance had expended
approximately $265,000 to develop the Stockpile Billing and
Receivables System and then decided to terminate it. Because
we believed the termination was not justified or adequately
documented, we recommended that: (1) the decision to terminate
be formally reevaluated and the reasons for not implementing
the system be thoroughly documented and supported by data
which would be available for review by the Office of Audits,
and (2) the reevaluation specifically address the reason(s)
the system was allowed to proceed to completion before
termination and. to the extent possible, assign responsibility
for this waste of GSA resources in an effort to minimize the
potential for its recurrence.
As we advised the Congress in our last report, the Assistant
Administrator for Plans, Programs, and Financial Management
disagreed with our recommendations. We referred the matter
to the Agency Followup Official on July 23, 1982 for reso-
lution. The matter was referred, in turn, to the Office of

                                   23
Audit Resolution for review. Their recommendations were to be
presented to the Agency Followup Official by November 1982.
The Inspector General requested status information from the
Agency Fol10wup Official on January 4, 1983. No response
has been received to date.

Problems Relating to GSA's ADP Systems
Period First Reported:   October 1, 1980 - March 31, 1981
This audit found that GSA had not developed contingency/
recovery plans for its major sensitive computer systems.
We made 10 recommendations for corrective action; two have
not been implemented. They relate to the development of a
contingency/recovery plan for the B-7700 and FSS-19 systems,
and the performance of risk analyses on the same systems.
Because the Assistant Administrator for Plans, Programs and
Financial Management originally took exception to these recom-
mendations, the matter was brought to the Administrator's at-
tention on November 18, 1981. Resolution occurred on
December 21, 1981.
As of March 31, 1983, neither of these recommendations had
been implemented.

Evaluation of a Change Order Proposal
Period First Reported:   April 1, 1982 - September 30, 1982
Our audit report, issued on August 16, 1982, concluded that
a $300,000 credit change order submitted on GSA's VOTRAKON
project in Saudi Arabia was understated by $640,000. In our
last Report to the Congress, we advised that resolution of
this matter was being deferred until January 1983.
As of March 31, 1983, this audit remains unresolved. The
contracting officer questions whether this matter should
be processed under the changes clause or treated as a
termination for convenience.

Regional Management of the Public Buildings Service/Information
System Needs Improvement
Period First Reported:   October 1, 1981 - March 31, 1982
An internal audit of the Public Buildings Service/Information
System found the system1s usefulness and reliability had been
reduced. We made 10 recommendations for corrective action.



                                  24
In our last Report to the Congress, we reported that the
Office of Audit Resolution was carrying four recommendations
as unimplemented. Two involved personnel matters and two
concerned unnecessary system reports. In their status report
as of March 31, 1983, they advised that corrective action
had been completed on the two recommendations dealing with
personnel matters, leaving two recommendations addressing
the elimination of unnecessary system reports still un-
implemented.
An implementation review performed by the Office of Audits
and issued on March 23, 1983 found that four recommendations
remained unimplemented. One involved personnel matters (a
recommendation closed by the Office of Audit Resolution) and
three involved systems reports (one of these recommendations
had been previously closed by the Office of Audit Resolution,
while the remaining two are the above items referenced as
open).
The Office of Audit Resolution has agreed to reverify the
status of all four recommendations reaffirmed in our
implementation review.

Procurement of Computer Hardware and Software to Support GSA
Operations
Period First Reported:    April 1, 1982 - September 30, 1982
This audit disclosed that the procurement of 26 minicomputers
to support the Federal Supply Service would cost GSA in
excess of $5.9 million more than the equipment configuration
already in place. Management agreed with our recommendations
and terminated the procurement.
As   of March 31. 1983, one recommendation remained open due
to   the transfer of functional responsibility brought about
by   a reorganization. Management is currently in the process
of   finalizing their action plan.

         b.   Significant Audit Recommendations Being Implemented
              According to Established Milestones
Audit of a Missed Lease Option
Period First Reported:    April 1, 1982 - September 30. 1982
Our review of a missed lease option in San Francisco,
California, verified that the Government had failed to
exercise its right to retain the leased space at a base
rental rate of $9.20 per square foot. We projected that
additional Government costs could equal $24 million to
$33 million over the next 10 years. Accordingly, we made


                                   25
eight recommendations for corrective action; seven of these
recommendations have been implemented.
The remaining recommendation, directed at the Commissioner
of PBS, involved the development of a manual system to track
multi-unit leases. It called for two separate actions. The
first action was completed on January 7, 1983. The remaining
action was to have been completed by February 1983; this
milestone has been extended to April 29, 1983.

Poor Inspection of Repair and Alteration Contract Work
Period First Reported:   April 1, 1982 - September 30, 1982
Our review of repair and alteration work on a warehouse dis-
closed numerous contract deficiencies, defects and omissions
which went unnoticed by GSA inspectors. Accordingly, we
made nine recommendations for corrective action; corrective
action has been completed on eight of our recommendations.
The remaining recommendation, which required the contractor
to perform the specified work or obtain a credit, remains
open relative to one contract item - the pilasters which
were never installed. The region has determined that the
pilasters are a necessary structural requirement and has
rejected an attempt by the contractor to provide a credit
for these items. Accomplishment of the work has been com-
plicated and delayed by the fact that the construction
company was sold to a new owner. The region is working to
resolve this matter with the contractor.

Contracting Procedures for Commercial Appraisal Services
Do Not Assure Adequate Competition
Period First Reported:   April 1, 1982 - September 30, 1982
Our audit of the contracting procedures utilized to award
commercial appraisal service contracts found that current
practices do not assure adequate competition. We made three
recommendations to correct the deficiencies disclosed; two
have been implemented.
The third recommendation, involving the revision of the ap-
praisal handbook, is being implemented by both the Public
Buildings Service (PBS) and the Federal Property Resources
Service (FPRS). since each has its own appraisal handbook.
The PBS handbook has been revised in draft form and was
transmitted to all regions on March 30, 1983 with an in-
structional letter requiring its use even though it is still
in draft form. The FPRS revision is proceeding according to
schedule.



                                  26
Deteriorated Roof Adversely Affecting Stockpiled Asbestos
Period First Reported:   April 1, 1982 - September 30, 1982
Our review of the National Defense Stockpile storage program
disclosed that water leaking through the roof of the Baton
Rouge Depot, Baton Rouge, Louisiana had caused deterioration
of the burlap and plastic bags covering stored asbestos. We
recommended that immediate action be taken to resolve this
problem.
In response to our recommendation, a task force developed
a plan to either sell or bury the asbestos by May 1983.
This date has been extended to December 1, 1983.

An Approach to Improving GSA's Leasing Program
Period First Reported:   October 1, 1981 - March 31, 1982
This compendium report disclosed that GSA must take a more
aggressive role in establishing and enforcing policy for
leasing. Toward this end, we made 14 recommendations; nine
of the 14 have been implemented.
PBS has advised the Office of Audit Resolution that two of
the remaining recommendations have been implemented; they
are awaiting written documentation to confirm this fact.
Regarding the three other recommendations, implementation
is proceeding according to the revised milestone dates.

Prompt Action Needed to Preserve America's Recorded Heritage
Period First Reported:   October 1, 1981 - March 31, 1982
Our audit of the National Archives and Records Service found
that intrinsically valuable historical documents were not
being adequately preserved and protected. To correct the
identified deficiencies, we made eight recommendations for
corrective action; corrective action has been completed on
four recommendations.
The remaining recommendations are being completed according
to established milestones. All recommendations should be
implemented by October 1983.

Reimbursable Work Authorizations
Period First Reported:   October 1, 1981 - March 31, 1982
We found that GSA was performing work for tenant agencies
under reimbursable agreements without Congressional review


                                   27
and approval. We recommended that GSA develop procedures
which would require tenant agencies to cite appropriations
when requesting reimbursable services to demonstrate Congres-
sional approval.
Phase one of the corrective action was completed on July 2,
1982. Completion of the second step, revision of GSA Form
2957-RWA, should have been completed by January 31, 1983.
It is being delayed until September 1983 due to management's
need to solidify policy in this area.

Inadequate and Improper Financial Management of the Con-
struction Services Fund
Period First Reported:   October 1, 1981 - March 31, 1982
Our review of the Construction Services Fund disclosed serious
improprieties relative to its financial management. The
audit report contained nine recommendations; corrective
action has been completed on eight of these recommendations.
The remaining open recommendation required that action be
taken to determine the true fund needs of the Fund and, upon
determination, action be taken to obtain the necessary funds.
This action should be completed by April 1983.

Contract for New Federal Office Building Improperly Administered
Period First Reported:   October 1, 1981 - March 31, 1982
Our review of the construction of the new Federal office
building and courthouse in Hato Rey, Puerto Rico found that
over $580,000 in unnecessary costs were incurred and additional
funds were wasted due to improper administration of the con-
struction contract. We made four recommendations, including
one to initiate action to recover overpayments to the con-
tractor.
Corrective action has been taken and/or completed on all
recommendations. Regarding the recovery of the overpayment,
a claim was forwarded to the General Accounting Office on
April 3, 1982. To date, no monies have been collected. The
Office of Audit Resolution is carrying this recommendation
as an open item until the overpayment is recovered.

D.   UNREASONABLE REFUSAL OF INFORMATION OR ASSISTANCE
During the period, the Office of Audits did not experience
any refusals of information or assistance by Agency management.




                                  28
            Section III - Investigative Accomplishments

A.   SUMMARY OF ACCOMPLISHMENTS
This reporting period was marked by significant accomplishments
relative to criminal, civil and investigative actions. In spite
of staffing constraints, we were able to maintain a level of
activity consistent with that of the past period and continued
to manage the workload of the previous period in a timely
manner.
At the close of the prior period, we reported 563 investigative
cases as pending. A substantial number of these cases (269)
involved white collar crimes such as fraud, bribery, embezzlement
or false claims. During the period, we aggressively pursued
such cases and were able to close 89 of them. Overall, we
were able to close 226 of the 563 cases pending at the close
of the last period. In addition to this investigative activity,
we opened 378 new cases during the period. A substantial
number of these new cases (135) also involved white collar
crimes against the Government. A total of 84 investigative
cases opened this period were also closed this period.
Our activities resulted in a sharp rise in the number of criminal
referrals made to the Department of Justice or other authorities
for prosecutive consideration. Whereas we referred 38 cases
during the last period, this period 119 cases were referred.
We believe that this increase reflects the emphasis placed
on early consultation with the U.S. Attorneys Office regarding
the criminal potential evident in the investigative cases we
are working. Further, this rise also evidences referrals to
local authorities on those cases which have been declined by
the Department of Justice.
Our activities also resulted in a large increase in the
number of administrative referrals (158 cases this period
as opposed to 86 cases last period). This rise is a function
of two related factors: the increased visibility of this
Office as a result of education and communication initiatives
we have undertaken and, because of this visibility. a sharp
increase in the number of referrals from management and
employees relative to improper, although not illegal, conduct
on the part of GSA employees.
Finally, the recoveries achieved through litigation and in-
vestigation are noteworthy. This period, criminal and civil
litigation resulted in total recoveries of $1,909,186, as
opposed to the $201,820 recovered last period. Similarly,
investigations resulted in recoveries of $154,036 in contrast
to the $2,242 we reported last period. While such amounts
are a function of the cases themselves, we believe they are
highly significant in and of themselves.



                                  29
    1.     Investigative Workload
The investigative workload remained relatively constant as
compared to the last period. We opened 378 new cases and
closed a total of 310 cases. Detailed information on in-
vestigative activity is presented in Table 1 by case
category.
In addition to these cases, we received and evaluated 161
complaints/allegations from sources other than the Hotline
which involved GSA employees and programs. Based upon an
ana)ysis of these allegations, formal investigations were
not warranted.


            TABLE 1.    INVESTIGATIVE WORKLOAD ACTIVITY
                                                        Cases
                                                       Remaining
                       Cases Open*   Cases    Cases      Open
  Case Category         10/1/82      Opened   Closed    3/31/83
  White Collar            269         135      113        291
  Crimes (Fraud,
  Bribery,
  Embezzlement,
  and False
  Claims)
  Other Crimes in        1 14         1 a1      59        156
  GSA-Controlled
  Space
  Contractor
  Suspension/              44          17       18         43
  Debarment
  Employee                 83          52       62         73
  Misconduct
  at her                   53          73       58         68

  TOTAL                   563         378      310        631

 *Figures relating to cases open at the close of our last
  reporting period have been adjusted.




                                     30
    2.     Referrals
The Office of Inspector General makes three distinct types
of referrals to officials outside of the Agency: criminal,
civil and investigative. During the period, we referred
119 criminal cases involving 163 subjects to the Department
of Justice or other authorities for prosecutive consideration.
The status of these referrals is as follows:
                                                          Cases   Subjects
         Pending Prosecutive Decision
         Referrals     . .. .. .. .. .. · ·
          as of October 1 , 1982     •
                                 • • •
                                               ··..        57
                                                          1 19
                                                                    11 0
                                                                    1 63
         Declinations
         Accepted for Prosecution • •   ···   ·· ·• . .    77
                                                           43
                                                                    11 2
                                                                      67
         Pending Prosecutive Decision
          as of March 31, 1983
                                        ···    ··          56        94
We also referred 17 cases involving 25 subjects to either the
Civil Division of the Department of Justice or the appropriate
U.S. Attorney for civil action. These referrals could result
in potential recoveries of-almost $1.2 million. The status
of our civil referrals is as follows:
                                                          Cases   Subjects
         Pending Litigation Decision
          as of October 1, 1982* • • • • • • • •           21        42
         Referra 1 s • • • • • • • • • • • • • •           17        25
         Declinations • • • • • • • • • • • • •             8        16
         Accepted for Litigation • • • • • • •              4         9
         Pending Litigation Decision as
          of March 31, 1983 • • • • • • • • • •            26        42
     *Referrals reported as pending at the close of the last
      period have been adjusted.
For the 26 cases representing 42 subjects pending at the close
of the period, total potential recoveries exceed $11.2 million.
In addition to these criminal and civil referrals, our Office
made 11 investigative referrals to other Federal or State
agencies for further investigation or other appropriate
action.

    3.     Significant Criminal and Civil Cases
Many of the referrals made during the period, as well as those
from prior periods, have resulted in cases that are particularly
noteworthy. Selected cases are synopsized in the paragraphs
which follow.


                                         31
Civil Fraud Settlement of $816,896 Entered
On December 2, 1982, an agreement was reached between the
Government and a firm and its officers relative to a civil
fraud case. In a prior criminal action, the defendants were
found guilty of defrauding the U.S. Air Force under a GSA
equipment repair contract. At that time, the firm was fined
$45,000, its officers were placed on probation, and all three
subjects were debarred by GSA. In the civil settlement,
judgments totaling $816,896 were entered against the subjects.

Summary Judgment of $598,000 Awarded
Investigation of a firm which held GSA contracts in five
regions for repairing and recapping military tires resulted
in a successful civil action against the firm this period.
Litigation stemmed from a February 1981 criminal case wherein
the firm's president and production foreman pled guilty to
charges of supplying inferior materials to contract users.
At that time, substantial fines were imposed, the subjects
were placed on pr.obation, and the firm and the defendants
were debarred by GSA. In the February 24, 1983 civil
decision, the U.S. District Court entered a summary judgment
against the firm and its president in the amount of $598,000
plus interest and costs.

Agreement Reached Regarding False Certifications and Billings
An investigation of a firm which held two term construction
contracts with GSA disclosed violations of the Davis-Bacon
Act. We found that contractor employees working on Federal
job sites were underpaid by $29,000 and at least 25 false
certified payrolls were filed with GSA. Further, the inves-
tigation disclosed that the contractor also defrauded GSA of
approximately $140,000 in work required under the terms of
the two contracts.
Criminal action was declined in favor of civil prosecution
under the False Claims Act. In October 1982, after only four
days of trial, the contractor and the Government reached a
settlement agreement wherein GSA would retain the $141,000
already withheld from the contractor, the firm would pay GSA
an additional $12,500, and the contractor would not do business
with GSA until after June 1984.

Settlement Reached With Security Firm
In November 1982, the Government reached an agreement with
a security firm and its president and contract manager. The
corporation, which held a number of security guard contracts



                                 32
with GSA, was found to have disguised its failure to satisfy
certain of its contractual provisions relating to the
training of its personnel through false certifications.
The settlement requires the corporation to pay $5,000 im-
mediately and to pay an additional $30,000, plus interest,
in monthly installments over the next five years. As part
of the settlement, GSA agreed to remove the name of the
corporation, its president and contract manager from the
debarred bidders list and to restore their eligibility for
Government contracts.

Withholding Action Upheld
In November 1982, the Government reached an agreement with
a custodial services firm and its two principal owners and
operators. The settlement concerned a civil suit filed by
the contractor and a counterclaim filed by the Government.
The contractor instituted a civil suit in the U.S. Court of
Claims to recover approximately $41,000 which GSA had with-
held from the firm due to deficient and allegedly fraudulent
performance on Government contracts. This withholding action
was instituted when our investigation established that the
contractor was not providing the contractually required
staffhours and was falsifying its records to disguise this
fact.
In response to this suit, the Government brought a counter-
claim against the firm based upon the Civil False Claims Act
and various common law theories. Under the terms of the
settlement, the Government retained all of the monies withheld
and the firm agreed not to challenge any debarment action
instituted by GSA against the firm.

GSA Accounts R ceivable C    ctions Embezzled
A GSA Supervisory Operating Accountant resigned from his po-
sition while under investigation for embezzling accounts
receivable funds. Our investigation established that he had
embezzled checks and cash totaling over $37,000 during an 18
month period. On February 1, 1983, this former employee pled
guilty to a one count information charging him with violating
18 USC 641 (Embezzlement). On March la, 1983, the subject
was sentenced to three years imprisonment.

Assistant Buildings Manager Solicited Bribes
A GSA Assistant Buildings Manager resigned from his position
after we began an investigation of allegations of bribery and
extortion. The investigation established that the subject and
a co-conspirator extorted approximately $25,000 from contractors
doing business with GSA. On November la, 1982~ the subject
                                 33
admitted to directly recelvlng $4,000 by pleading guilty to five
counts of 18 USC 201 (Bribery). He was sentenced to a $20,000
fine, one year in prison (suspended), and one year of probation.

Former Employee Convicted of Bribery and Conspiracy
A two-year investigation disclosed that a construction contrac-
tor had paid a former GSA engineer approximately $13,000 to ap-
prove and process over 70 false and fraudulent change orders
valued at more than $200,000. On November 15, 1982, the former
employee was sentenced to one year imprisonment (nine months
suspended), a $10,000 fine, and three years probation. The con-
tractor has been sentenced to a fine of $5,000, two years pro-
bation and 200 hours of community service work.

    4.     Criminal Prosecutions and Civil Settlements
Cases accepted for criminal prosecution during this and prior
periods resulted in 28 indictments/informations and 14 convic-
tions. Detailed information on subjects in the criminal
justice system is presented in Table 2. The case against one
subject, an employee of a firm, was dismissed.

         TABLE 2.   SUBJECTS IN THE CRIMINAL JUSTICE SYSTEM
                    Indictments/   Convictions            Sentences
                    Informations   Pleas/Trials        Imposed/Pending
  GSA
  Employees              7            4           1        6

  Firms                  4            3           0       3
  Officers,             10            4           0        7      0
  Employees,
  Principals
  and Agents
  of Firms
  Other                  6            2           0       4       0
  Individuals
  Other Government       1            0           0        0      0
  Employees
  TOTAL               28           ----r3        -1-    21)     -2-


Civilly, settlements were reached in 10 cases involving 14
subjects and judgments were entered in 5 cases involving 7
subjects.


                                            34
       5.     Litigation:   Recoveries, Penalties and Settlements
Table 3 presents the amounts determined to be owed the Government
as a result of both criminal and civil actions. The totals do
not necessarily reflect actual monetary recoveries.


                     TABLE 3.   CRIMINAL AND CIVIL RECOVERIES
                                  Criminal           Ci vi 1          Total
  Fines and Penalties            $ 47,700      $               $      47,700
  Settlements and Judgments            7,836       1,807,497       1,815,333
  Restitutions                      46,153                            46,153

  TOTAL                           $101,689     $1,807,497      $1,909,186


  6.        Investigation Recoveries
In addition       to the recoveries achieved through audits and
litigation,       investigations conducted by the Office of Inspector
General may       directly result in the recovery of monies or prop-
erty of the       Government. This period, $154,036 was recovered
through our       investigations.

  7.        Administrative Referrals and Actions Involving GSA
            Employees and Programs
During the period, 158 cases involving 190 subjects were referred
to GSA officials for administrative action. These referrals
normally involved nonprosecutable wrongdoing on the part of GSA
employees, contractors, or private individuals doing business with
GSA. In addition, we referred 65 cases concerning 74 subjects to
Agency officials for informational purposes.
The status of administrative referrals during the period is as
follows:
                                                     Cases     Subjects
            Pending as of October 1, 1982 • ••         55            60
            Referrals   ••••••••••                    158           190
            Action Completed • • • • • • • • •        134           157
            Pending as of March 31, 1983 • • •         79            93




                                          35
Of the 158 cases (190 subjects) referred for administrative
action, 106 cases (110 subjects) involved GSA employees.
As a result of those referrals involving just GSA employees,
management took the following personnel actions:
         R9primands • •    •   •   • • • ••   17
         Suspensions •     •   •   • • • ••   19
         Demotions         •   •   • • • ••    3
         Terminations.     •   •   •     ••   19

    8.   Contractor Suspensions and Debarments
The Office of Inspector General has continued its efforts to
make the suspension/debarment process a more effective and
more readily used means of protecting the interests of the
Government in connection with GSA's multibillion dollar
procurement activities.
We referred to Agency officials 2 cases involving 5 subjects
for suspension and 20 cases recommending 56 subjects for
debarment. During the period, 3 suspensions were imposed
and 11 debarments were effected. Recommendations on 14 sus-
pensions and 22 debarments were disapproved.
The status of these referrals is as follows:
                                                            Cases   Subjects
          SUSPENSIONS


                                            · ·· ·· ·· ··
          Pending as of October 1 , 1982                      5        25
          Referrals    ....·       •      ·                   2         5
          Actions Completed
                           ·
          Pending as of March 31, 1983  · · · ·· ·· ·· ··     3
                                                              4
                                                                       17
                                                                       13
          DEBARMENTS

          Referrals    . . . . · . .. · · · ·· ·· ·· ··
          Pending as of October 1 , 1982                     10
                                                             20
                                                                       28
                                                                       56
          Actions Completed
                               · · · · · · ·· ··
                                •
          Pending as of Ma rc h 31, 1983
                                         •
                                           •
                                                              9
                                                             21
                                                                       33
                                                                       51

    9.   Inspector General Subpoenas
The Office of Inspector General views the use of subpoenas to
be an effective tool for obtaining information when other
reasonable measures fail. During the period, 14 instances
met this criterion and subpoenas were issued.
In addition, the Office litigated a subpoena enforcement action
this period when an educational institution refused to comply
with a subpoena duces tecum calling for the production of
certain student records. On January 18, 1983, the U.S. District

                                        36
Court, Washington, D.C., granted judicial enforcement, re-
jecting the school's claim that the subpoena was not lawfully
issued and that production of such records would violate the
Buckley Amendment. No appeal was taken and the records were
provided.

B.   UNREASONABLE REFUSAL OF INFORMATION OR ASSISTANCE
The Offices of Counsel and Investigations encountered no
instances where information or assistance was unreasonably
refused by Agency management.




                                  37
      Section IV - Review of Legislation and Regulations


A.   GENERAL
The Office of Inspector General is mindful of the importance of
its legislated responsibility to review proposed legislation and
regulations. Such reviews constitute an important vehicle for
highlighting any areas which might have a negative impact on the
ability of this Office to perform its legislated mission or for
recommending changes which could strengthen our ability to elim-
inate fraud, waste or mismanagement. In addition, these reviews
serve to provide another perspective from which the originators
can view the potential impact of new legislation or regulations.
As of March 31, 1983, this Office had reviewed 128 legislative
matters and 33 regulatory initiatives.

B.   SIGNIFICANT COMMENTS
The paragraphs below detail the comments made by the Office on
the more significant legislative and regulatory matters reviewed.
-- Opposed H.R. 33, a bill to transfer management of the National
Defense Stockpile to the Secretary of Defense. We support the
present law which vests management responsibility with the Pres-
ident who in turn delegates it to several federal agencies on
a functional basis. Our position was based in part upon the
fact that the stockpile program is designed to serve civil and
industrial needs as well as military mobilization requirements.
-- Supported enactment of DOD Draft Bill 23 to amend the Service
Contract Act of 1965. We believed the bill would simplify ad-
ministration of the Act and perhaps resolve some problems of
interpretation.
-- Supported enactment of State Department Draft Bill 19, Foreign
Service Act Amendments of 1983, which would extend the provisions
of the Hatch Act to the Inspector General of the Foreign Service
and the Department of State and the Director General of the Foreign
Service. We expressed the view that since all other Inspectors
General were already subject to the Hatch Act and the Director
General, although appointed, is required to be a career member of
the Senior Foreign Service, this provision would enhance their
independence.
-- Strongly supported H.R. 1092, the Federal Computer Systems Pro-
tection Act of 1983, which imposes criminal penalties for misuse
of certain computers. We felt that such legislation was justified
in light of the rising incidence of computer fraud nationwide.
-- Opposed enactment of S. 2695, the Federal Procurement Improve-
ment Act of 1982, expressing the view that the proposed "advocates
for competition" would merely duplicate the duties of contracting
officers under existing law.
                                 38
-- Recommended a Presidential veto of Enrolled Bill 1371 to
amend Section 12 of the Contract Disputes Act of 1978. This
bill would require the Government to pay interest on contractor
claims from the date on which they are received by the con-
tracting officer, regardless of the date of certification.
In making our recommendation, we pointed out that claims are
often certified long after they are received by the contracting
officer.
-- Supported and provided comments on the revision of GSA reg-
ulations and Federal Procurement Regulations to effect those
changes to Agency and Governmentwide contractor debarment and
suspension procedures brought about by Office of Federal
Procurement Policy Letter 82-1. In particular, we strongly
supported the assignment of the fact-finding role to the GSA
Board of Contract Appeals, since such action will more closely
align GSA's procedures with those of other agencies and will
facilitate the suspension and debarment process within GSA.




                                 39
                  Section V - Other Activities


A.   PREVENTION ACTIVITIES
The Inspector General Act of 1978 directs the OIG to assume a
leadership role in the formulation of policies designed to promote
economy, efficiency, and effectiveness in Agency operations, and
to exec~te programs directed at both the detection and prevention
of fraud and abuse. In the past, the majtirity of this Office's
activities centered upon detection and improvements to Agency pro-
grams. While prevention initiatives certainly were not ignored,
the events of the late 1970's did not allow for their emphasis.
Undoubtedly, the disclosures of fraud during that period mandated
that the bulk of our resources be directed at swift and immediate
detection and elimination.
More recently, and especially within the current reporting
period, this Office has stepped up activities relative to
prevention. Mindful that fraud and waste will only be minimized
when the conditions conducive to their existence are removed,
we have undertaken a broad-sweeping program keyed to what we
believe are the fundamental elements of prevention: definition,
anticipation, education and communication.
     Definition
The first fundamental element leading to prevention, definition,
collectively refers to all those efforts aimed at identifying
areas vulnerable to fraud and waste and, to the extent possible,
assessing the degree of vulnerability. Within GSA's DIG,
"vulnerability assessment" has taken many forms, each of which
is directed at a specific purpose.
One form of definition relates to the straightforward itemization
of what areas appear to be vulnerable to fraud and waste. This
period we completed an inventory of auditable entities which
systematically defines the internal audit workload, the cor-
responding level of audit coverage required and, through a series
of weighting factors, evaluates the organization/program's
vulnerability to fraud and waste and its need for ongoing audit
review. This information will form the basis of our annual
audit planning process and, because of the weighting factors,
will enable us to select work based solely on the area's per-
ceived vulnerability to fraud, waste and mismanagement. We
believe that the focusing of resources in areas viewed as vul-
nerable constitutes one major prevention technique.
Another type of definition performed by this Office involves
analysis of audit results. Such analyses, which sometimes
take the form of reviewing all audits within a given program,
similar audits over a chronological period, or collectively
analyzing the regional results of a specific audit, have
helped us to identify systemic agency problems and provided


                                 40
insight into appropriate remedial action. It has been our ex-
perience that these collective analyses often lend more insight
into the underlying causes than individual reviews which
frequently capture only the symptoms or isolate a specific
problem at a particular point in time.
We believe that such analyses constitute an important prevention
vehicle because of the perspective and knowledge they provide.
Consequently, we have continued to emphasize across-the-board
reviews culminating in consolidated or compendium reports.
One such effort, a review of controls over repairs, alterations
and improvements to leased space, is highlighted as a significant
audit for this period in Section lIB of this report.
A final aspect of definition resides in our establishment of a
specialized unit whose major responsibilities include operational
surveys designed to prevent the occurrence of fraud and waste.
This unit, when fully functioning, will comprise the focal point
for many of our prevention activities.
Prior to the close of the reporting period, this unit began de-
veloping a program for the conduct of operational surveys. As
currently envisioned, these surveys will be performed by multi-
disciplinary teams of five people who will work onsite for
three to six weeks. The surveys will result in reports to
management and, where appropriate, referrals to audits and/or
investigations. Currently, this unit is defining potential
areas for review.
    Anticipation
Anticipation operates on the premise that instances of fraud
and waste can be minimized when there are front-end assurances
that, at least at the onset, the program or activity was
operating within applicable laws, regulations, policies, or
procedures. Toward this end, we have continued to emphasize
our preaward reviews of leases and audits of major systems
development projects.
The OIG began performing advisory reviews of leases in early
1982. Such reviews are performed to ensure that contractual
actions relative to all leases involving annual rentals in ex-
cess of $200,000 conform with regulatory requirements. Moreover,
these reviews are designed to identify deficiencies in the
leasing process, disclose any irregularities affecting lease
award, and determine that all required documentation was pre-
pared. While these reviews are purely advisory in nature and
do not constitute a concurrence in or approval tu make an award,
we believe they constitute a valuable prevention measure.
The following schedule shows the program results for this period:
     Lease proposals submitted for review         58
     Lease proposals reviewed                     32
     Reviews with no or minor deficiencies        26
     Reviews with major deficiencies               6

                                 41
Examples of major deficiencies include:
  - a prospectus for the total one year lease extension was
    not submitted for Congressional approval.
  - a market survey was not performed.
  - the proposed lease agreement did not identify the pa.rtners
    involved in the lease as required by PBS regulations.
  - inconsistencies existed in the Solicitation for Offer, lease
    agreement, and Price Negotiation Memorandum (PNM), i.e., the
    lease showed a term of 9 years and 11 months while the PNM
    showed 10 years.
  - the liquidated damages clause was erroneously lined out of
    a lease agreement.
  - the rental rate for the proposed supplemental agreement was
    far greater than the rate for the base lease yet no
    justification was provided.
  - exact space requirements for the tenant agency were not known.
SimilarlY, we have been reviewing major ADP systems development
projects for the past four years. The objectives of such audits
are to ensure that adequate controls are built into these systems
while they are being developed, and to prevent waste and misuse of
valuable ADP resources. In the past year alone, GSA avoided ap-
proximately $6.4 million in unnecessary and/or unjustified ADP
procurements because of these audits. Our efforts in this area
are continuing. Presently, we are involved in several reviews of
ADP operations where there is similar potential for avoiding un-
necessary costs.
This period, we also developed a model control system for space
acquisition and utilization in coordination with GSA management
and the Office of Management and Budget (OMB). The model, which
was issued by OMB on November 22, 1982, contains guidelines
designed to prevent unnecessary expenditures by helping agencies
to establish, improve, and evaluate their space acquisition and
utilization programs. Over the next six to eight months, several
agencies will be testing the model's usefulness as a management
to 0 1 •
     Education
Education relates directly to heightening the awareness of GSA
employees to the manifestations of fraud and waste and their
personal responsibility to report any suspected instances to the
OIG. Likewise, education refers to teaching employees the
standards which govern their own professional activities.




                                 42
We have sought to achieve these objectives through an ongoing
education program. In 1981, we developed an Integrity Awareness
Briefing for presentation to Agency employees. Since its
inception, over 2,000 employees have received this training.
This period, we expanded our audience to include members of
the OIG staff as well. Our intent was to increase our own
staff1s sensitivity to indicators of fraud and, more impor-
tantly, not to presume that their work experience automatically
translated to personal knowledge of how to respond to fraud.
During this period, 1,011 managers, supervisors and employees
in nine GSA regions as well as Central Office attended these
briefings.
     Communication
Communication refers to our initiatives to make people more
aware of GSAls OIG in particular and other IG offices in
general. Toward this end, we have nearly finalized a brochure
on our Hotline for distribution throughout the Agency. We
believe that in addition to acting as a detection device, the
Hotline, in its own way, exercises a prevention role. The
more people become aware of such devices and the emphasis
placed upon their use, the more potential wrongdoers may be
inclined to think twice about their actions for fear of being
reported. Taking this a step further, we are taking action
to have all OIG Hotline numbers printed on the back cover of
all the individual telephone directories of Federal agencies.
Between October 1, 1982 and March 31, 1983, we received 814
Hotline calls and letters, 16 referrals from the General Ac-
counting Office (GAO), and 8 referrals from other agencies.
These complaints were evaluated and, where warranted, ap-
propriately referred to GSA program officials, other Federal
agencies or were retained by this Office for audit, inspection
or investigative action. Complaints were referred as follows:
          Audits/Inspections/Investigations.        57
          GSA Program Officials. • • • • • •        68
          Other Agencies • • • • • • • • • •        10

The remaining 703 complaints required no further action and were
closed.
Beyond this aspect of communication, there is the need to share
successful prevention techniques which may have applications
in other agencies or programs. In this regard, we continuously
advise other agencies of techniques/programs which we have
found to be beneficial and which might have application in
their own agency. Currently, we are actively participating
in a President1s Council on Integrity and Efficiency (PCIE)
subcommittee designed to develop and promote the media for
such communication Governmentwide.



                                 43
      Conclusion
We believe that this combination of definition, anticipation,
education and communication comprises a well-rounded and
well-directed approach to prevention. While the effects of
a prevention program can generally not be measured with
precision, we believe our program is successful. We are
pleased to see the growing emphasis placed on prevention by
the President's Council on Integrity and Efficiency and view
many of these initiatives as complementary to our own.

B.   PROJECTS SPONSORED BY THE PRESIDENT'S COUNCIL ON INTEGRITY
     AND EFFICIENCY
The OIG continued to work on the interagency projects sponsored
by the President's Council on Integrity and Efficiency (PCIE).
This Council, which was established by an Executive Order in
March 1981, provides leadership for Governmentwide activities
designed to reduce waste and abuse in Federal programs and
operations. Table 1 delineates the specific projects in
which we are participating and the extent of our involvement.
During the period, we concluded our efforts relative to the
Governmentwide audit of construction contract change orders.
The purpose of this review, which was planned and coordinated
under the direction of the Department of Transportation, was
to evaluate the adequacy and effectiveness of internal controls
over change orders in protecting the Government against fraud,
waste and abuse. The Department of Defense, Veterans Admin-
istration, and the Environmental Protection Agency also took
part in this project.
Within GSA, the review was performed in five regions (New York,
Atlanta, Kansas City, Auburn, and the National Capital Region).
Almost 230 change orders were reviewed and ninety percent were
found to be deficient in one or more of the following areas:
documentation, pricing actions, negotiations, financial
practices or management information systems.
The detailed results were consolidated in a draft report which
was submitted to GSA management on October 29, 1982. Sub-
sequently, the report and management's response were forwarded
to the Department of Transportation for inclusion in the over-
all project report.
We continued to take the lead role on the Council project ad-
dressing procurement suspensions and debarments. This effort,
which complements initiatives to strengthen Government use
of debarment and other mechanisms, is designed to facilitate
the implementation of the Office of Federal Procurement Policy
letter 82-1. This letter, which sets forth the policies and
procedures governing suspensions and debarments of contractors
throughout the Executive Branch, also provides for consolidated
listings of suspended, debarred and ineligible contractors.

                                  44
We also co-chaired an interagency task force project aimed
at reviewing the desirability and feasibility of a single
Governmentwide suspension and debarment system. The system
would encompass all individuals and entities doing business
with the Government whether it be as a contractor, as a par-
ticipant in Federal programs, or as a recipient of assistance
or benefits. Under such a system, suspension/debarment actions
imposed by one agency would extend to all agencies.
Relative to this project, a major study involving 19 Executive
Branch departments and agencies was completed in November 1982.
The project report, entitled "Report of the Interagency Project
Team on Suspension and Debarment -- A Comprehensive Governmentwide
System Is Needed,1I is currently being circulated for comment among
senior Federal officials.



             TABLE 1.     PARTICIPATION IN PCIE PROJECTS

     Project Name                                    Participation
     Construction Contract Change Orders                    Full
     Procurement Suspensions and Debarments                 Full
     Uniform Suspension and Debarment Standards             Full
     Governmentwide 8(a) Eligibility                       Limited
     OMB Circular A-102                                    Limited


During the period, we were also actively involved in three
other PCIE Committees: the Prevention Committee, initiated
in January 1983; the Training Committee, Subcommittee on
Auditor Training; and the Incentives and Administrative
Remedies Committee.

C.     OIG INTERNAL MANAGEMENT INITIATIVES
During the past six months, a number of initiatives undertaken
in prior periods continued to progress according to established
milestones. These actions reflect the overall emphasis and
attention being given to improving the efficiency of DIG
operations.
-- Integrated Planning System. The audit planning system de-
veloped and instituted at the end of the last reporting period
is functioning smoothly. Our management information system
is now being utilized for maintenance of the annual plan, for

                                       45
initiation of audit assignments, and for tracking audits in
progress. Operational control of the plan is now vested in
the Office of Audits while the Office of Policy, Plans and
Evaluation oversees plan accomplishment. Currently, we are
developing, as an adjunct to the system, an annual planning
conference. Aimed at increasing regional input in the process
as well as at strengthening communication between regional
and headquarters audit managers, the conference will be used
to define, integrate and prioritize areas of audit emphasis
for Fiscal Year 1984.
-- Inspector General Information System (IGIS). The value
and usefulness of this system becomes more apparent as time
passes and we learn to more fully utilize its potential. An
integral part of the audit planning and tracking system, it
is now being used for control of the investigative caseload
as well. All of our regional offices and headquarters are now
on line, allowing for data input, retrieval and interactive
communication. Policies, procedures and operating manuals
are being developed concurrently, and during the upcoming re-
porting period virtually all management reports on the status
of audits and investigations will be produced through IGIS.
-- Evaluations of Component Offices. Guidelines for the cri-
tique of audit reports were developed and put into practice
by the Office of Policy, Plans and Evaluation during this
period. An initial group of reports were evaluated and the
evaluations were distributed to and discussed with cognizant
audit officials. The purpose of these critiques is to promote
a definitive level of quality in OIG audit reports and to en-
sure their compliance with OIG policies and General Accounting
Office standards. Procedures are likewise being developed
for reviews of OIG field offices and, once completed, onsite
evaluations will commence. It is anticipated that the first
of these evaluations will take place in the next reporting
period and they will be conducted on an ongoing basis thereafter.




                                 46
Appendices
                                                           APPENDIX I
                                                           Page 1 of 33
                        REPORT REGISTER
                        CONTRACT AUDITS
                                                              Date of
Number                              Title                     Report
lA-20888-02-02      Preaward Evaluation of Pricing
                    Proposal for A/E Services, Jansen &
                    Rogan~ Engineers P.A., Contract No.
                    GS-02B-23180(NEG)                       10/04/82
2C-20276-00-05      Letter Report - Price Reduction and
                    Defective Pricing, Joerns Furniture,
                    Contract No. GS-00S-00069               10/05/82
2Q-20885-04-04      Preaward Audit of 8(a) Pricing
                    Proposal, R&E Electronics, Inc.,
                    Solicitation No. CDPP-W-81-J-A0009-W4 10/07/82
2C-10660-00-09      Price Reduction and Defective Pricing,
                    Beckman Instruments, Inc., Contract
                    Nos. GS-00S-04560, 86591, and 27010    10/08/82
2M-20862-01-01      Cafeteria Operations, Canteen Corp.,
                    Waltham, Massachusetts                  10/08/82
lL-20919-09-09      Letter Report - Lease Escalation
                    Proposal, Murdock Development Co.,
                    2022 Camino del Rio North, San Diego,
                    California, Lease No. GS-09B-75762    10/08/82
A30005/4/F/821012   Letter Report - Lease Escalation
                    Review, Duvall Building,
                    St. Petersburg, Florida, Contract
                    No. GS-04B-20669                        10/12/82
lL-20658-05-05      Lease Escalation Proposal. Chicago
                    Exchange Building Associates,
                    Lease No. GS-05BR-12447                 10/13/82
ID-20779-11-11      Claim for Increased Costs, Albers
                    Construction Co., Contract No.
                    GS-068-81150                            10/13/82
10-20804-11-02      Claim for Delay Costs, Edison Price
                    Lighting, Inc., Second-Tier Sub-
                    contractor Under USS-OCF-W&M,
                    Joint Venture Under Price Contract
                    No. GS-00B-02839                        10/13/82
2Q-20944-00-26-D    Evaluation of Price Proposal, Raca1
                    Communications, Inc.                    10/13/82




                               47
                                                         APPENDIX I
                                                         Page 2 of 33
                       REPORT REGISTER
                       CONTRACT AUDITS
                                                            Date of
Number                            Title                     Report
2J-20945-04-04    Preaward Price Proposal for Cleaning
                  Services, A&B Maintenance, Inc.,
                  Contract No. GS-04B-82757                10/15/82
1A-20973-11-11    Letter Report - Preaward Evaluation
                  of A/E Pricing Proposal, The E/A
                  Design Group, Chartered, Contract No.
                  GS-llB-19064                          10/15/82
lA-20044-05-05    Preaward Evaluation of Price Proposal,
                  Holabird & Root, Proposal No.
                  GS-05BC-90463                          10/18/82
2F-20705-00-01    Claim for Increased Costs, Coleman
                  Furniture Corp.                         10/18/82
2M-20865-02-02    Shoe Repair Shop Concession,
                  Johnson's Shoe Service, Concessionaire
                  Under Small Business Administration
                  Concession Agreement No. GS-02B-17452
                  (NEG)                                  10/18/82
1D-20871-11-11    Claim for Increased Costs, Hoel-
                  Steffen Construction Co., Contract
                  No. GS-06B-81101                        10/18/82
lL-20782-09-09    Letter Report - Lease Escalation
                  Proposal, Tishman West Management,
                  525 Market Street, San Francisco,
                  California, Lease No. GS-09B-73066      10/19/82
lA-20854-02-02    Preaward Evaluation of Pricing
                  Proposal for A/E Services, Quinlivan,
                  Pierik & Kraus/Robson & Woese, Inc.,
                  A Joint Venture, Contract No.
                  GS-02B-23155(NEG)                     10/19/82
1 A-20942-11-11   Preaward Evaluation of A/E Pricing
                  Proposal, Contract Amendment No.6,
                  Metcalf/KCF Joint Venture, Contract
                  No. GS-03B-99021                        10/20/82
2B-20963-00-03    Contractor's Pricing Proposal, Grim
                  Corp., Solicitation No.
                  GSC-CDPCE-00019-N-6-29-82               10/22/82
2F-20714-07-07    Claim for Equitable Adjustment,
                  Apex Rent-A-Car, Inc., Contract
                  No. GS-07S-04979                        10/25/82

                             48
                                                            APPENDIX I
                                                            Page 3 of 33
                         REPORT REGISTER
                         CONTRACT AUDITS
                                                               Date of
Number                              Title                      Report
2C-20930-10-06      Letter Report - Price Reduction and
                    Defective Pricing, Nissen Corp.,
                    Cedar Rapids, Iowa, Contract No.
                    GS-02S-30532                              10/25/82
2B-20939-00-02      Preaward Evaluation of Pricing
                    Proposal, Metropolitan Microforms,
                    Ltd., Solicitation No. FCGE-B9-
                    75224-N                                   10/25/82
2J-20944-10-10      Preaward Evaluation of Pricing
                    Poposal, Coast Janitorial Service,
                    Inc., Contract No. GS-10B-50871-01        10/25/82
2J-20959-07-07      Preaward Evaluation of Pricing
                    Proposal, Williamson & Son
                    Janitorial Service, Inc., Contract
                    No. GS-07B-21279                          10/25/82
10-20455-03-11      Claim for Increased Costs, T.A. Gorman,
                    Inc., Contract No. GS~03B-78059       10/26/82
28-20960-07-02      Preaward Evaluation of Pricing
                    Proposal, Randall Manufacturi ng Co.,
                    Inc., Solicitation No. 7CF-52093
                    B5/7FC                                    10/26/82
2C-10067-00-03      Postaward Audit, RCA Corp., Mobile
                    Communications Systems, Meadow Lands,
                    Pennsylvania, Contract No. GS-OOS-
                    44630                                 10/27/82
2C-20109-08-08(a)   Price Reduction, Mobile Office
                    Manufacturing and Leasing Corp.,
                    Contract No. GS-08S-33535 and
                    Renewal No.1                              10/27/82
2C-20118-00-10      Price Reduction and Defective Pricing,
                    IVAC Corp., Contract No. GS-OOS-
                    86663                                  10/27/82
2N-20928-06-06      Claim for Unmetered Steam Usage,
                    Kansas City Power and Light Co.,
                    Kansas City, Missouri, Contract
                    No. GS-06B-13900                          10/27/82
A30004/l/F/82l028   Letter Report - Delay Claim,
                    Gilbane/Parametric, J.V., Providence,
                    Rhode Island                          10/28/82

                               49
                                                           APPENDIX I
                                                           Page 4 of 33
                        REPORT REGISTER
                        CONTRACT AUDITS
                                                             Date of
Number                              Title                    Report
2W-20896-01-01      Time and Material Contract, Gibson
                    Motor and Machine Service, Inc.          10/29/82
A30045/2/F/82ll01   Letter Report - Lease Escalation,
                    Coldwell Banker, 237 South Street,
                    Morristown, New Jersey, Lease No.
                    GS-02B-18594                             11/01/82
1A-20957-10-02      Preaward Evaluation of Pricing
                    Proposal for A/E Services, Dubin &
                    Bloome Associates, P.C., Project
                    No. NOR26500                            11/01/82
1D-20777-11-11      Claim for Increased Costs, T.A.
                    Gorman, Inc., Contract No. GS-OOB-
                    02839                                   11/02/82
2K-20358-11-06      Letter Report - Cost Plus Award Fee
                    Contracts, Springfield Building
                    Maintenance, Inc., Contract Nos.
                    03C8095301-2 and 03C9046401-3           11/05/82
A30044/2/F/82ll08   Letter Report - Lease Escalation
                    Proposal, Whitestone Associates,
                    130-30 31st Avenue, College Point,
                    New York, Lease No. GS-02B-17982        11/08/82
2C-20096-07-05      Price Reduction, General Instrument
                    Corp., Lamp Division, Contract No.
                    GS-00S-85258                            11/08/82
2R-20859-00-03      Preaward Evaluation of Proposal
                    Submitted for Multiple Award Schedule
                    Contract, General Electric Co.,
                    Mobile Communications Business Div.
                    Solicitation No. GSC-CDPCD-00019-N-6-
                    29-82                                 11/08/82
lA-20933-09-09      Preaward Evaluation of A/E Pricing
                    Proposal, Bay Architects Associates,
                    Contract No. GS-09B-C-20604-SF          11/08/82
A30001/8/F/82l1l0   Preaward Evaluation of Pricing
                    Proposal, Honeywell Inc., Test
                    Instruments Division, Solicitation
                    No. FGS-L-36394-N-9-16-81, Amendment
                    No. FCGS-L-3639-N                       11/10/82



                               50
                                                           APPENDIX I
                                                           Page 5 of 33
                          REPORT REGISTER
                          CONTRACT AUDITS
                                                              Date of
Number                              Title                     Report
10-20974-11-11      Claim for Increased Costs, E. C.
                    Ernst, Inc., Contract No. GS-03B-
                    01998                                    11/12/82
lA-20902-10-10      Zimmer, Gunsul, Frasca, Partnership,
                    Architects, Portland, Oregon, Federal
                    Building East, Project NOR26500       11/15/82
2J-20909-03-03      Preaward Evaluation of Pricing
                    Proposal, Liberty Security Services,
                    Inc_, Solicitation No. GS-03B-
                    82-R-0029                                11/16/82
A30064/5/F/821118   Letter Report - Accounting System and
                    Controls Over Progress Payments, Peter
                    Pirsch & Sons, Contract No.
                    GS-00T-40273                           11/17/82
2R-20976-00-03      Preaward Evaluation of Proposal
                    Submitted for Multiple Award Schedule
                    Contract, Tactec Systems, Inc.,
                    Solicitation No. GSC-CDPCE-00019-N-
                    6-29-82                               11/17/82
A30006/8/F/821119   Settlement Proposal for Contract
                    Termination, D. L. McLaughlin
                    Co., Inc., Contract No. GS-088-81138    11/19/82
IT-20971-11-11      Termination Settlement Proposal,
                    G. W. Mechanical Contractors. Inc.,
                    Contract No. GS-llB-98450                11/19/82
lR-20785-06-06      Region 6 Has Generally Estimated
                    Costs for Janitorial Services in
                    Accordance with the PBS A-76 Cost
                    Model                                   11/22/82
lL-20916-02-02      Lease Escalation Proposal, Se Fish
                    Associates, FDA Building, Buffalo,
                    New York, Lease No. GS-02B-8978          11/22/82
A30002/5/F/821123   Preaward Evaluation of Price
                    Proposal, Gould, Inc. Instrument
                    Division, Solicitation No. FGS-L-
                    36394-N-9-16-81 (9/1/82), Renewal
                    of Contract No. GS-00S-45192            11/23/82




                               51
                                                           APPENDIX I
                                                           Page 6 of 33
                           REPORT REGISTER
                           CONTRACT AUDITS
                                                              Date of
Number                               Title                    Report
2C-20109-08-08(b)    Price Reduction, Mobile Office
                     Manufacturing & Leasing Corp.,
                     Contract No. GS-08S-35221               11/23/82
2A-20948-11-11       Preaward Evaluation of Pricing
                     Proposal, Public Law Education
                     Institute, Contract (Renewal) No.
                     GS-OlS-08018                            11/23/82
A30035/6/F/821124    Evaluation of Change Order Proposal
                     (P-3), Ed Davis Construction Co.,
                     Inc., Lee's Summit, Missouri,
                     Contract No. GS-06B-21050               11/24/82
A30046/W/F/821124    Claim for Increased Costs, McKramish-
                     Chesapeake, Inc., Contract No.
                     GS-00B-02839                          11/24/82
2C-20643-00-01       Price Reduction and Defective Pricing,
                     Farrington Business Systems, Inco,
                     Contract No. GS-OOS-23573              11/26/82
2C-20755-00-01       Price Reduction, AF-Davidson (Division
                     of White CO~501idated Industries),
                     Contract No. GS-00S-23010              11/26/82
lL-20899-02-02       Lease Escalation Proposal, 60 E.
                     Amherst Co., 60 E. Amherst Street,
                     Buffalo, New York, Lease No.
                     GS-02B-18640                            11/26/82
A30039/10/F/821129   Letter Report - Preaward Evaluation
                     of Price Proposal, Monaco Enter-
                     prises, Inc.                            11/29/82
2C-20881-07-10       Letter Report - Price Reduction and
                     Defective Pricing, Monaco Enter-
                     prises, Inc.                            11/29/82
10-20907-11-03       Evaluation of Claim for Increased
                     A/E Costs, SSA Computer Center
                     Building, Woodlawn Associated Planners
                     and Architects, Contract No.
                     GS-OOB-02540                           11/29/82
lL-20914-08-08       Lease Escalation, Equity Management,
                     Inc., Federal Building and U.S. Court-
                     house, Helena, Montana, Lease No.
                     GS-08B-09785                           11/29/82

                                52
                                                           APPENDIX I
                                                           Page 7 of 33
                          REPORT REGISTER
                          CONTRACT AUDITS
                                                              Date of
Number                              Title                     Report
2G-20898-07-09      Postaward Vehicle Rental Contract,
                    Travl-Car-Rent-A-Car, Contract No.
                    GS-07S-05025                             11/29/82
2A-20952-07-06      Preaward Evaluation of Pricing
                    Proposal, Hill's Pet Products, Inc.,
                    Solicitation No. 7CR-W-52241/B5/7YC     11/30/82
10-20308-11-11      Claim for Increased Cost, McKamish-
                    Chesapeake, Inc., Contract No.
                    GS-03B-78059                             12/01/82
lR-20968-04-04      Letter Report - A-76 Cost Estimate
                    Was Prepared In Accordance With
                    Revised PBS Cost Model                  12/01/82
10-20282-11-11      Claim for Increased Costs, Honeywell,
                    Inc., Contract No. GS-03B-78059       12/02/82
A30008/W/F/82l206   Preaward Evaluation of Pricing
                    Proposal, Larry's Service Company,
                    Inc., Contract No. GS-llC-20345         12/06/82
A30112/9/F/821206   Letter Report - Escalation Proposal,
                    Robert A. McNeil Corporation, 4220
                    Maryland Parkway, Las Vegas, Nevada,
                    Lease No. GS-09B-76592                  12/06/82
A30079/4/F/821206   Letter Report - Superb Maintenance
                    Services, Inc., Proposal to Provide
                    Janitorial Services in Savannah,
                    Georgia                                 12/06/82
A30048/9/F/82l208   Letter Report - Lease Escalation
                    Proposal, One Embarcadero Center,
                    San Francisco, California, Lease No.
                    GS-09B-6390                             12/08/82
A30098/4/F/82l208   Preaward Audit of Pricing Proposal,
                    Telco Research Corp_, Nashville,
                    Tennessee                               12/08/82
A30014/2/F/821209   Letter Report - Preaward Evaluation
                    of Pricing Proposal, JVC Company of
                    America, Solicitation No. GSC-OCPCE-
                    00018-N                                 12/09/82
A30087/2/F/821209   Preaward Evaluation of Pricing
                    Proposal, Phillips Electronic Instru-
                    ments, Inc., Solicitation No.
                    FGS-G-36393-N                         12/09/82
                               53
                                                                APPENDIX I
                                                                Page 8 of 33
                               REPORT REGISTER
                               CONTRACT AUDITS
                                                                   Date of
Number                                   Title                     Report
lB-20791-11-11           Pre award Evaluation of A/E Pricing
                         Proposal, Energy Systems Engineering,
                         Inc., Contract No. GS-llB-19063       12/09/82
1C209081103/3/F/821209   Preaward Evaluation of Change Order
                         Proposal, Structural Preservation
                         Systems, Inc., Contract No. GS-03B-
                         88611, Change Order No.5                 12/09/82
A30127/9/F/8212l0        Letter Report - Eligibility as a
                         Manufacturer Under Walsh-Healey,
                         Roan Corporation                        12/10/82
A30011/7/F/821215        Price Reduction Audit of Harris Corp_,
                         Computer Systems Division, Contract
                         No. GS-OOC01928                        12/15/82
A30133/X/F/821215        Contract Audit Closing Statement,
                         IBM Corporation                          12/15/82
A30134/X/F/821215        Evaluation of Price Proposal,
                         Watkins-Johnson Company                  12/15/82
10-20843-11-11           Claim for Increased Costs, Honeywell,
                         Inc., Contract No. GS-03B-02839       12/16/82
A30017/W/F/821217        Lease Escalation Proposal, Southwest
                         Joint Venture, Lease No. GS-03B-60172 12/17/82
A30018/W/F/821217        Lease Escalation Proposal, Westwood.
                         Joint Venture No.4, Lease No.
                         GS-038-60031                            12/17/82
A30102/6/F/8212l7        Preaward Evaluation of Pricing
                         Proposal, Bucher and Willis, Salina,
                         Kansas                                   12/17/82
A300072/F/821220         Preaward Evaluation of Pricing
                         Proposal, Nikon, Inc., Solicitation
                         No. GSA-3YC-82-N-020                     12/20/82
A30056/l/F/821220        Preaward Evaluation of Construction
                         Consultant Services, Gilbane/Jackson
                         (Joint Venture), Contract No.
                         PA3PC004                                12/20/82
A30075/l/F/821222        Preaward Evaluation of Pricing
                         Proposal. VG Instruments, Inc.,
                         RFP-FGS-G-36393-N9-23-82                 12/22/82

                                    54
                                                                APPENDIX I
                                                                Page 9 of 33
                               REPORT REGISTER
                               CONTRACT AUDITS
                                                                   Date of
Number                                    Title~_

A30078/1/F/821222        Letter Report - Preaward Evaluation
                         of Canberra Industries, Inc., Solici-
                         tation No. FGS-G-36393-N-9-23-82      12/22/82
A30117/W/F/821223        Letter Report - Value Engineering
                         Change Proposal, National Restoration
                         Corp., Contract No. GS-03C-16097      12/23/82
lD207761111/W/F/821227   Claim for Increased Costs, Owens-
                         Corning Fiberglas, Subcontractor to
                         USS-OCF-W&M, Joint Venture, Contract
                         No. GS-OOB-02839                        12/27/82
2C208030002/2/F/821229   Letter Report - Price Reduction
                         and Defective Pricing Review, Mettler
                         Instrument Corp., Contract No.
                         GS-OOS-27290                          12/29/82
2C206560105/5/F/821229   Letter Report - Defective Pricing
                         and Price Reductions, National Safety
                         Council, Contract No. GS-01S-07805    12/29/82
A30063/5/F/821230        Preaward Evaluation of Price Proposal,
                         Packard Instrument Co., Inc., Solie;
                         tation No. FGS-G-36393-N-9-23-82       12/30/82
2C207560001/1/F/821230   Postaward Audit. Simplex Time
                         Recorder Co., Gardner~ Massachusetts    12/30/82
1L209150808/8/F/821230   Lease Escalation Proposal, Denver
                         West Office Building No.2 Venture,
                         Golden, Colorado, Lease No. GS-088-
                         09787                                   12/30/82
A30022/W/F/830104        Preaward Evaluation of Lease
                         Alteration Pricing Proposal.
                         Spruell Development Corp_,
                         Lease No. GS-03B-6390                   01/04/83
A30051/6/F/830104        Preaward Evaluation of Pricing
                         Proposal, Wulfsberg Electronics,
                         Inc., Overland Park, Kansas             01/04/83
A30072/2/F/830105        Letter Report - Price Reduction
                         and Defective Pricing, C.R. Bard.
                         Inc., Bard Urological Division,
                         Contract No. GS-OOS-27194               01/05/83




                                    55
                                                             APPENDIX I
                                                             Page 10 of 33
                               REPORT REGISTER
                             , CONTRACT AUDITS
                                                                Date of
Number                                   Title                 Re po rt

lL209670909/9/F/830103   Lease Escalation Claim, Spear
                         Street Investment Co., Lease
                         No. GS-09B-73348                      01/07/83
A30103/6/F/830110        Preaward Evaluation of Pricing
                         Proposal, Campbell and Wieland,
                         Inc., St. Louis, Missouri             01/10/83
lK209691111/W/F/830110   Preaward Evaluation of Lease
                         Alteration Pricing Proposal,
                         Donohoe Construction Co.,
                         Lease No. GS-llB-00052                01/10/83
2C-20678-00-09           Letter Report - Price Reduction
                         and Defective Pricing, Antekna,
                         Inc., Contract No. GS-00S-86336      01/11/83
lL209311111/W/F/830111   Lease Escalation Proposal,
                         2025 M Associates (Joint Venture)
                         Lease No. GS-03B-90012               01/11/83
A30037/9/F/830107        Letter Report - Preaward
                         Evaluation of Pricing Proposal,
                         CEC Division, Bell and Howell
                         Co., Pasadena, California,
                         Solicitation No. FGSL-36394-N-9-
                         16-81                                01/11/83
A30132/5/F/830111        Preaward Evaluation of Price
                         Proposal, Kenton Peters and
                         Associates. Contract No.
                         GS-05BC-90411. Modification
                         No. 10                               01/11/83
A30094/7/F/830112        Preaward Evaluation of A/E
                         Pricing Proposal, The Stuck/Mott
                         Group, A Joint Venture, Solici-
                         tation No. GS-07B-31235              01/12/83
A30119/8/F/830112        Preaward Evaluation of Pricing
                         Proposal, CPT Corporation,
                         Solicitation No. GSC-CDPS-C-
                         21-N-5-12-83                         01/12/83
1K209701111/W/F/830112   Preaward Evaluation of Lease
                         Alteration Pricing Proposal,
                         District Building Services, Inc.,
                         Lease No. GS-11B-10025               01/12/83


                                    56
                                                                    APPENDIX I
                                                                    Page 11 of 33
                              REPORT REGISTER
                              CONTRACT AUDITS
                                                                       Date of
Number                                      Title                      Report
                                                    ,
A30042/2/F/830113        Preaward Evaluation of Pricing
                         Proposal, W. D. Cambell Co./
                         The Gunlocke Co., Solicitation
                         No. FNP-Al-1151-N                           01/13/83
2C202751006/6/F/830113   Price Reduction and Defective
                         Pricing Proposal, Universal
                         Gym Equipment, Inc., Cedar
                         Rapids, Iowa, Contract No.
                         GS-02S-30531                                 01/13/83
A30070/6/F/830114        Price Reduction and Defective
                         Pric i n g Pro p0 sal, Un; ve r sal Gy m
                         Equipment, Inc., Cedar Rapids,
                         Iowa, Contract No. GS-02S-30349             01/14/83
A30148/1/F/830114        Evaluation of Pricing Proposal,
                         M&H Building Services, Inc.                 01/14/83
A30204/X/F/830114        Evaluation of Price Proposal
                         and Change Order Proposal, CACI,
                         Inc.-Federal, Contract No.
                         GS-OOS-22058                                01/14/83
2C208080001/1/F/830114   Postaward Audit, Sorensen Co.,
                         Manchester, New Hampshire,
                         Contract No. GS-00S-27406                   01/14/83
A30105/6/F/830117        Letter Report - Region 6 1 s
                         Preparation of A-76 Mechanical
                         Maintenance Cost Estimates                  01/17/83
A30082/9/F/830118        Letter Report - Preaward
                         Evaluation of Pricing Proposal,
                         Beckman Instruments, Inc.,
                         Fullerton, California,
                         Solicitation No. FGS-G-36393-
                         N-9-23-82                                   01/18/83
20209510909/9/F/830118   Postaward Audit of Cost and
                         Pricing Data, Inter-Con Security
                         Systems, Inc., Contract No.
                         GS-09B-02194                                01/18/83
A30171/8/F/830119        Lease Escalation Proposal.
                         Denver West Office Building
                         No.3 Venture, Golden, Colorado,
                         Lease No. GS-08B-I0737                      01/19/83



                                       57
                                                                APPENDIX I
                                                                Page 12 of 33
                             REPORT REGISTER
                             CONTRACT AUDITS
                                                                   Date of
Number                                   Title                     Report
A30176/6/F/830119        Evaluation of Termination
                         Settlement Proposal, Don Bartch
                         Roofing Co., Inc., St. Louis,
                         Missouri, Contract No.
                         GS-06B-23690                              01/19/83
A30007/7/F/830121        Review of Contract Billings,
                         Merigoni Business Machines,
                         Contract No. GS-07D-00299                 01/21/83
A30232/5/F/830124        Letter Report - Financial Review
                         Don H. Barden, Lease No.
                         GS-05B-12503                              01/24/83
A30084/5/F/830125        Evaluation of Value Engineering
                         Change Proposal, The Mosler Safe
                         Co., Contract No. GS-03B-78341            01/25/83
A30097/4/F/830125        Report on Final (Third Year) Audit
                         of Cost Plus Award Fee Contract,
                         Kentucky Building Maintenance, Inc.,
                         John C. Kluckzynski Federal Building
                         and U.S. Postal Building, Chicago,
                         Illinois, Contract No. GS-05B-
                         41892(NEG)                                01/25/83
A30196/6/F/830125        Letter Report - Financial Review
                         of Leisure Travel and Tours, Inc_,
                         Independence, Missouri, Contract
                         No. GS-00T-01682                          01/25/83
l0209721111/W/F/830125   Claim for Increased Costs,
                         John C. Grimberg Co., Inc.,
                         Contract No. GS-038-88311                 01/25/83
A30219/5/F/830127        Letter Report - Preaward
                         Evaluation of Multiple Award
                         Pricing Proposal, General
                         Instrument Corp_, Lamp Division,
                         Solicitation No. 7CF-52213/L5/7FC,
                         Contract No. GS-07S-08992                01/27/83
A30123/4/F/830128        Preaward Evaluation of Pricing
                         Proposal for A/E Services,
                         Robert and Company, U.S. Court
                         of Appeals, Atlanta, Georgia,
                         Contract No. GS-04B-82410                01/28/83



                                    58
                                                               APPENDIX I
                                                               Page 13 of 33
                            REPORT REGISTER
                            CONTRACT AUDITS
                                                                  Date of
Number                                   Title                    Report
A30124/3/F/830128        Preaward Evaluation of Pricing
                         Proposals, Cooper Medical Devices
                         Corp., Solicitation No.
                         FGA-W-X2500-N-9-17-82                   01/28/83
A30164/W/F/830128        Preaward Evaluation of Lease
                         Alteration Pricing Proposal,
                         Starr Management Corp.,
                         Lease No. GS-03B-70036                  01/28/83
A30168/4/F/830128        Claim for Damages, Termination
                         of Contract for Convenience of
                         Government, C.S.R.A. Security
                         and Investigative Services, Inc.,
                         Contract No. GS-04B-82534              01/28/83
lR20903l010/l0/F/830128 Buildings Management Division Has
                        Generally Estimated Costs for
                        Janitorial Services in Accordance
                        with the Revised PBS A-76 Cost
                        Model, Region 10                         01/28/83
A30146/2/F/830131        Preaward Evaluation of Pricing
                         Proposal, Security Guard
                         Service, Masgon Patrol Service,
                         Inc., Subcontractor Under U.S.
                         Small Business Administration
                         RFP 2PPB-DW-24,114 (NEG)                01/31/83
2S004020001/1/F/830l31   Price Reduction and Defective
                         Pricing, Data General Corp.,
                         Contract No. GS-00C-01265              01/31/83
2C207400003/3/F/830201   Postaward Audit, Laboratory Pro-
                         cedures, Inc., King of Prussia,
                         Pennsylvania, Contract No. GS-04S-
                         23840                                  02/01/83
A30242/4/F/830201        Letter Report - A&B Maintenance,
                         Inc.'s Proposal to Provide Jani-
                         torial Services at Several Loca-
                         tions in the Fort Lauderdale,
                         Florida, Area, Contract No. GS-04B-
                         82872                                  02/01/83
A30095/2/F/830202        Preaward Evaluation of Pricing
                         Proposal, Dumont Oscilloscope
                         Laboratories, Inc., Solicitation
                         No. FCGS-X-36395-N                     02/02/83

                                    59
                                                              APPENDIX I
                                                              Page 14 of 33
                             REPORT REGISTER
                             CONTRACT AUDITS
                                                                 Date of
Number                                Title                      Report
A30129/7/F/830202        Preaward Evaluation of Pricing
                         Proposal, Abbott Laboratories,
                         Abbott Diagnostics Division,
                         Solicitation No. FGS-P-36396-
                         N-1-12-82                              02/02/83
A30221/8/F/830202        Accounting System Review,
                         Superior Fire Apparatus Co.,
                         Contract No. GS-OOT-40260              02/02/83
lD207611107/7/F/830202   Claim for Increased Costs,
                         USS-OCF-W&M, Joint Venture and
                         Subcontractor, Owens Corning
                         Fiberglas, Contract No. GS-OOB-
                         02839                                  02/02/83
A30195/6/F/830203        Preaward Evaluation of Pricing
                         Proposal, Sylvester James and
                         Sons Maintenance Service, Inc.,
                         Kansas City, Kansas, Contract No.
                         GS-06B-27659-01                        02/03/83
A30113/9/F/830207        Preaward Evaluation of A/E Pric-
                         i ng Proposal, Al bert C. r"arti n
                         and Associates, Solicitation
                         No. RCA 72125                          02/07/83
A30157/W/F/830207        Preaward Evaluation of Pricing
                         Proposal, t1ultivac, Inc., Con-
                         tract No. GS-llC-30012                 02/07/83
A30210/6/F/830207        Letter Report - Price Reduction
                         and Defective Pricing Review,
                         Raye Limited, Inc., St. Louis,
                         Nissouri, Contract No. GS-OlS-
                         07893                                  02/07/83
A30179/2/F/830209        Preaward Evaluation of Pricing
                         Proposal. The Bates Manufacturing
                         Co., Solicitation No. 2YC-NAF-N-
                         A1467-S                                02/09/83
A30143/2/F/830209        Preaward Evaluation of Pricing
                         Proposal for A/E Services,
                         Tippetts-Abbett-McCarthY-Stratton
                         (TAMS), PADe Contract No. PA3PCOOl     02/09/83
A30151/5/F/830209        Preaward Evaluation of Price Pro-
                         posal, Clarke Division, McGraw-
                         Edison Co., Solicitation r~o.
                         9YCO-OLQ-M-A0671/82                    02/09/83
                                     60
                                                              APPENDIX I
                                                              Page 15 of 33
                             REPORT REGISTER
                             CONTRACT AUDITS
                                                                 Date of
Number                                   Title                   Report
lC208050202/2/F/830209   Claim for Construction Changes,
                         PJR Construction Corp., Contract
                         No. GS-02B-74005, Requests for
                         Proposal Nos. 103, 138, 142, 143,
                         and 163                                02/09/83
A30122/4/F/830210        Claim for Da~ages, Termination
                         of Contract for Convenience of
                         Government, Government Contract
                         Service, Inc., Contract No.
                         GS-03B-98801                           02/10/83
A30241/1/F/830211        Evaluation of Pricing Proposal,
                         Crystal Industrial t1aintenance
                         Co., Inc.                              02/11/83
A30116/W/F/830214        Lease Escalation Proposal,
                         Arlington Alliance Ltd., Lease
                         No. GS-03B-5735                        02/14/83
A30218/3/F/830214        Preaward Evaluation of Pricing
                         Proposal, A to Z Mai ntenance
                         Co., Solicitation No. 2PPB-D5
                         24,049 (NEG)                           02/14/83
ID204890404/4/F/830214   Pretrial Accounting Submission,
                         Submitted by Fischback & Moore,
                         Inc., Subcontractor to Frank
                         Bri scoe Co., Inc., Contract No.
                         GS-04B-16375                           02/14/83
10204900404/4/F/830214   Pretrial Accounting Submission,
                         Submitted by IVlcKenney's, Inc.,
                         Subcontractor to Frank Briscoe
                         Co., Inc., Contract No. GS-04B
                         16375                                  02/14/83
lD204910408/8/F/830214   Delay Claim for Increased Costs,
                         F&M Systems Co., Subcontractor
                         to Frank Briscoe Co., Inc., Under
                         Prime Contract No. GS-04-16375         02/14/83
ID204940405/5/F/830214   Amended Claim for Increased Costs,
                         Watson-Mahaney, Inc., Subcon-
                         tractor to Frank Briscoe Co ••
                         Contract No. GS-04B-16375              02/14/83
1R208900909/9/F/830214   Region 9's Implementation of the
                         PBS A-76 Cost Model                    02/14/83

                                    61
                                                               APPENDIX I
                                                               Page 16 of 33
                           REPORT REGISTER
                           CONTRACT AUDITS
                                                                  Date of
Number                                  Title                     Report
A30091/W/F/830215       Lease Escalation Proposal,
                        Arlington Alliance, Ltd.,
                        James K. Polk Building, Lease
                        No. GS-038-5707                          02/15/83
A30130/7/F/830215       Preaward Evaluation of Pricing
                        Proposal, Curtin Matheson
                        Scientific, Inc., Solicitation
                        No. FGS-P-36396-N-I-12-82                02/15/83
A30120/5/F/830216       Preaward Evaluation of Price
                        Proposal, AM International, Inc.,
                        Bruning Division, Solicitation
                        No. FGE-B2-75202-N-8-19-82
                        (Renewal #1)                             02/16/83
2C20277005/5/F/830216   Price Reductions, Joerns Furniture
                        Co., Inc., Contract No. GS-00S-86881     02/16/83
A30089/W/F/830217       Lease Escalation Proposal, Arlington
                        Alliance, Ltd., Zachary Taylor
                        Building, Lease No. GS-03B-5735          02/17/83
A30136/8/F/830217       Preaward Audit of Multiple Award
                        Contract to Monsanto Co., Solici-
                        tation No. 8YCG-B3-C-14164               02/17/83
A30139/W/F/830217       Lease Alteration Proposal, Fisher
                        and Strachan, Inc., Lease No.
                        GS-03B-5783                              02/17/83
A30235/3/F/830217       Postaward Audit, Bergen Expo
                        Systems, Inc., Clifton, New Jersey,
                        Contract No. GS-03S-81025                02/17/83
A30003/7/F/830218       Price Reduction Review, Edmont-
                        Wilson, Division of Becton,
                        Dickinson and Co., Contract No.
                        GS-OlS-07341                             02/18/83
A30206/1/F/830222       Preaward Evaluation of Offer
                        Submitted by Instrumentation
                        Laboratory, Inc., Solicitation
                        No. FCGS-G-36393-N                       02/22/83
2CI10250007b/7/F/830222 Price Reduction/Defective
                        Pricing, Abbott Labora-
                        tories, Diagnostics Division,
                        Contract No. GS-00S-86972               02/22/83

                                   62
                                                               APPENDIX I
                                                               Page 17 of 33
                                 REPORT REGISTER
                                 CONTRACT AUDITS
                                                                  Date of
Number                                    Title                   Report
lD204920402/2/F/830222   Claim for Delay Costs, Haggerty
                         ~lillworkCorp., Subcontractor
                         to Frank Briscoe Co., Inc., Under
                         Prime Contract No. GS-04B-16375         02/22/83
lD204930402/2/F/830222   Claim for Delay Costs, J.I. Hass
                         Co., Inc., Subcontractor to Frank
                         Briscoe Co., Inc., Under Prime
                         Contract No. GS-04B-16375               02/22/83
lD204860403/3/F/830223   Amended Claim and Pretrial
                         Accounting Submission, ACandS,
                         Inc •• Subcontractor to Frank
                         Sri scoe Co., Inc., Contract
                         No. GS-04B-16375                        02/23/83
A30263/5/F/830223        Letter Report - Preaward Evaluation
                         of Multiple Award Pricing Proposal,
                         Victor Technologies, Inc., Victor
                         United Division, Solicitation No.
                         YGE-Yl-75235-N-1-6-83                   02/23/83
A30313/X/F/830224        Preaward Evaluation of Price Pro-
                         posal. Electronics System Division,
                         Bunker Ramo-Eltra Corp., Solicita-
                         tion No. GSC-CDPSC-00021                02/24/83
2C203560005/5/F/830224   Postaward Audit of Multiple Award
                         Contract, Spacesaver Corp •• Con-
                         tract No. GS-00S-20180                  02/24/83
A30126/1/F/830225        Letter Report - Price Reduction and
                         Defective Pricing Audit, Pitney
                         Bowes Corp., Contract No. GS-OOS-
                         23514                                   02/25/83
A30227/W/F/830225        Letter Report - Preaward Evalua-
                         tion of Custodial Service Pricing
                         Proposal, Diplomatic Painting &
                         Building Services Co., Inc., Con-
                         tract No. GS-11C-30035                  02/25/83
A30244/vJjF/830225       Lease Alteration Proposal, North-
                         western Development Co., Lease
                         No. GS-03B-06521                        02/25/83
lL209650808/8/F/830225   Lease Escalation Proposal, The
                         Crystal Co •• Sunlight Manor
                         Federal Office Center, Glenwood
                         Springs, Colorado, Lease No. GS-
                         08B-09916                               02/25/83
                                     63
                                                                      APPENDIX I
                                                                      Page 18 of 33
                                  REPORT REGISTER
                                  CONTRACT AUDITS
                                                                         Date of
Number                                       Title                       Report
2C208660011/W/F/830228   letter Report - Price Reduction and
                         Defective Pricing Audit, Hazleton
                         laboratories America, Inc.,
                         Contract No. GS-04S-239l                       02/28/83
A30047/W/F/830228        lease Claim, Woodbridge Construc-
                         tion Co., Cyclone Service Corp.,
                         lease No. GS-038-70043                         02/28/83
A30128/7/F/830228        Preaward Evaluation of Pricing
                         Pro po sal, 0 we n s - I 1 1i no is, Inc.,
                         Kimble Division, Solicitation
                         No. FGS-P-36404-N-8-9-82                       02/28/83
A30247/6/F/830228        letter Report - Price Reduction
                         and Defective Pricing Review,
                         Excel Industries, Inc., Hesston,
                         Kansas, Contract No. GS-07S-0769l              02/28/83
A30023/W/F/830303        Contract Modification, Advanced
                         Energy Control Systems, Inc.,
                         Contract No. GS-llC-I0462                      03/03/83
A30264/4/F/830304        letter Report - Preaward Review
                         of Colbar, Inc.'s Proposal to
                         Provide Janitorial Services,
                         Raleigh, North Carolina, Contract
                         No. GS-04B-82829                               03/07/83
A30153/W/F/830307        Preaward Evaluation of lease
                         Alteration Proposal, The
                         Charles E. Smith Companies,
                         lease No. GS-03B-06503                         03/07/83
A3U298/2/F/830307        Preaward Evaluation of Pricing
                         Proposal for Security Guard
                         Services, Masgon Patrol Services,
                         Inc., Subcontractor Under U.S.
                         Small Business Administration,
                         Solicitation No. RFP-2PPB-PF-24,
                         136(NEG)                                       03/07/83
A3U307/8/F/830307        Defective Pricing, Monsanto Co.,
                         Wildfire Control Division,
                         Ontario, California, Requirements
                         Contract No. GS-08S-35840                      03/07/83
A30182/3/F/830308        Preaward Evaluation of Proposal
                         Submitted for Multiple Award
                         Schedule Contract, Geometric
                         Data, Solicitation No.
                         FCGS-P-36396-N-1-12-82                         03/08/83
                                        64
                                                             APPENDIX I
                                                             Page 19 of 33
                                REPORT REGISTER
                                CONTRACT AUDITS
                                                                Date of
Number                                   Title                  Report
A30338/X/F/830308        Preaward Evaluation of Price
                         Proposal Submitted by Trak
                         Systems, Division of Trak
                         Microwave Corp., Solicitation
                         No. GSC-KESA-X-00022-N-12-21-82       03/08/83
A30059/4/F/830309        Price Reduction and Defective
                         Pricing, Pullman-Holt Products,
                         Inc., Tampa, Florida, Contract
                         No. GS-09S-41199                      03/09/83
A30114/9/F/830903        Preaward Evaluation of A/E
                         Pricing Proposal, Shapiro, Okino,
                         Hom and Associates, Contract No.
                         GS-09B-C-8175-SF                      03/09/83
A30156/W/F/830309        Preaward Evaluation of Lease
                         Escalation Proposal, Hoffman
                         Co., Inc., Hoffman Building II,
                         Lease No. GS-03B-5960                 03/09/83
A30226/W/F/8303l0        Preaward Evaluation of Pricing
                         Proposal, Datatronix, Inc.,
                         RFP No. KET-VC-83-04                  03/1 0/83
2C105020403/3/F/8303l0   Postaward Audit of C&D Batteries
                         Division, Plymouth Meeting,
                         Pennsylvania, Contract No.
                         GS-04S-22135                          03/10/83
2S209000007/7/F/830310   Postaward Review of Texas
                         Instruments, Inc., Contract
                         No. GS-OOC-01671                      03/10/83
A30217/3/F/830311        Preaward Evaluation of Proposal
                         Submitted for Multiple Award
                         Schedule Contract, E.r. Dupont
                         OeNernours & Co., Inc., Solici-
                         tation No. FCGS-P-36396-N-1-12-82     03/11/83
A30142/2/F/830314        Preaward Evaluation of Pricing
                         Proposal, Ortho Diagnostic
                         Systems, Inc., Solicitation No.
                         FGS-P-36396-N                         03/14/83
A30231/5/F/830314        Lease Escalation Proposal, The
                         Cleveland Rockford Co., Lease
                         No. GS-05B-12439                      03/14/83


                                    65
                                                               APPENDIX I
                                                               Page 20 of 33
                               REPORT REGISTER
                               CONTRACT AUDITS
                                                                  Date of
Number                                   Title                    Report
A30274/W/F/830315        Preaward Evaluation of Pricing
                         Proposal, Cassidy Cleaning, Inc.,
                         Contract No. GS-IIC-30026               03/15/83
A30134/S/F/830316        Evaluation of Price Proposal,
                         C3, Inc., Solicitation No.
                         GSC-KESA-B-00023-N                      03/16/83
A30249/1/F/830316        Letter Report - Preaward
                         Evaluation of Pitney Bowes, Corp.,
                         Solicitation No. YGE-Yl-75235-N-l-
                         6-83                                    03/16/83
A30364/X/F/830316        Contract Audit Closing Statement,
                         Computer Sciences Corp., Systems
                         Division, Contract No. GS-OOC-50000     03/16/83
2C208500001/I/F/830318   Postaward Audit of Jeol, U.S.A.,
                         Inc., Contract Nos. GS-OOS-85185
                         and GS-00S-27167                        03/18/83
A30147/W/F/830318        Preaward Evaluation of Pricing
                         Proposal, Jones & Artis/Smoot,
                         A Joint Venture, Contract No.
                         GS-1IB-08605 (Neg)                      03/18/83
A30350/4/F/8303l8        Letter Report - Lease Escalation
                         Review, Navelex Building, North
                         Charleston, South Carolina,
                         Contact No. GS-04B-15479                03/18/83
A30140/W/F/83032I        Preaward Evaluation of Lease
                         Escalation Proposal, W. H. Tysons
                         Page Corp., Page Building, Lease
                         No. GS-03B-6640                         03/21/83
A30201/5/F/83032l        Lease Escalation Proposal,
                         American National Bank of Chicago,
                         Trustee Under Trust No. 32501 and
                         Trust No. 40589, Lease No.
                         GS-05BR-12005                           03/21/83
A30318/5/F/830321        Letter Report - Preaward
                         Evaluation of Price Proposal,
                         A. B. Dick Co., Solicitation
                         No. YGE-MB-75239-N                      03/21/83
A30125/4/F/830322        Price Reduction and Defective
                         Prici ng, Medart, Inc., Greenwood,
                         Mississippi, Contract No.
                         GS-00S-38211                            03/22/83
                                    66
                                                           APPENDIX I
                                                           Page 21 of 33
                            REPORT REGISTER
                            CONTRACT AUDITS
                                                              Date of
Number                              Title                     Report
A30306/8/F/830322   Preaward Evaluation of Pricing
                    Proposal, Synergetics Inter-
                    national, Inc., Boulder, Colorado,
                    Solicitation No. GSC-CDPCE-00021-
                    N-12-28-82                               03/22/83
A30322/4/F/830322   Letter Report - Preaward Audit of
                    8(a) Price Proposal, E. R. Smith
                    Construction Co., Inc., Federal
                    Building and Courthouse, Clarksdale,
                    Mississippi                              03/22/83
A30229/5/F/830322   Letter Report - Preaward Evaluation
                    of Initial Space Alteration Proposal,
                    LaSalle National Bank, Trustee Under
                    Trust No. 101866, Lease No.
                    GS-05B-13596                          03/22/83
A30169/9/F/830324   Letter Report - Preaward Evaluation
                    of Prici ng Proposal, Hewlett
                    Packard Co., Palo Alto, California,
                    Solicitation No. FGS-P-36396-N-l-
                    12-82                                    03/24/83
A30299/2/F/830325   Letter Report - Accounting Systems
                    Review of Ward ' 79 Limited, Elmira
                    Heights, New York, Contract No.
                    GS-OOS-64020                             03/25/83
A30162/9/F/830328   Price Reduction and Defective
                    Pricing, Computer Sciences Corp.,
                    Contract Nos. GS-OOC-5l043 and
                    GS-OOC-51077                             03/28/83
A30209/9/F/830328   Preaward Evaluation of Price
                    Proposal, Inter-Con Security
                    Systems, Inc., Alhambra, Cali-
                    fornia, RFP No. OPR-9PPB-83-0212         03/28/83
A30276/W/F/830328   Preaward Evaluation of Lease
                    Alteration Pricing Proposal,
                    JBG Properties, Inc., Lease No.
                    GS-038-06512                             03/28/83
A30404jXjFj830329   Preaward Evaluation of Pricing
                    Proposal, Hoover Systems
                    Acoustical Screens In Color,
                    Inc., Solicitation No.
                    FNP-F5-1272-N-ll-l9-82                   03/29/83

                               67
                                                         APPENDIX I
                                                         Page 22 of 33
                        REPORT REGISTER
                        CONTRACT AUDITS
                                                            Date of
Number                              Title                   Report
A30l04/6/F/830329   Letter Report - Review of Office
                    of Budget's Revised General and
                    Administrative Rate Guidelines for
                    A-76 Cost Estimates                    03/29/83
A3039l/X/F/830329   Evaluation of Pricing Proposal,
                    Sutron Corp., Solicitation No.
                    GSC-CDPCE-00021-N-12-28-82             03/29/83
A30406/X/F/830330   Evaluation of Cost Proposal
                    for Modification of Maintenance
                    Service Contract, Western Union
                    Telegraph Co., Government Systems
                    Division, McLean, Virginia,
                    Contract No. GS-00C-50405              03/30/83
A30208/7/F/83033l   Vehicle Rental Agreements,
                    Thrifty-Rent-A-Car, Little Rock,
                    Arkansas, Contract No.
                    GS-07S-07956                           03/31/83
A30257/2/F/83033l   Letter Report - Price Reduction
                    and Defective Pricing, Empire
                    Sporting Goods Manufacturing
                    Co., Inc., Contract No.
                    GS-01S-07799                           03/31/83




                               68
                                                             APPEtlDIX I
                                                             Page 23 of 33
                         REPORT REGISTER
                         INTERNAL AUDITS
                                                                Date of
tlumber                               Title                     Report
3C-00624-09-09-F(1)   Short Form Followup - Controls Over
                      the Transfer and Donation of
                      Personal Property Can Be Improved        10/01/82
50-00672-02-02-F(1)   Followup - Controls Over Payments
                      for Contract Labor at the Raritan
                      Depot Need To Be Improved                10/04/82
4B-20409-05-05        Letter Report - Regional Management
                      of the Public Buildings Service
                      Information System, Region 5             10/05/82
40-20152-08-08        Accident and Fire Prevention Branch,
                      Office of Public Buildings and
                      Real Property, Region 8                  10/06/82
4E-00692-11-11-F(1)   Followup - Administration of
                      Construction Contracts Could Be
                      Improved                                 10/13/82
6G-10934-05-05        Selected 8(a) Contracts, Region 5        10/13/82
5P-00673-09-09-F(1)   Short Form Followup - Operations of
                      the Office of External Affairs,
                      Region 9                                 10/15/82
4~1-20396-05-05       Letter Report - Administration of
                      ADP Service Contracts, Region 5          10/18/82
4G-20828-07-07(g)     Letter Report - Proposed Award of
                      Lease, 275 West Campbell Road,
                      Richardson, Texas                        10/18/82
40-20571-01-01        Letter Report - Building Management
                      Operations at the JFK Federal
                      Building, Boston, Massachusetts          10/19/82
3V-00229-09-09-F(1)   Short Form Followup - Transportation
                      Costs Can Be Reduced by Thousands of
                      Dollars, Region 9                        10/20/82
4G-20800-04-04(f)     Letter Report - Option Renewal Dates
                      for Leases in Region 4                   10/20/82
A30025b/9/F/821082    Letter Report - Proposed Award of
                      Lease Extension, 2500 Wilshire
                      Boulevard, Los Angeles, California       10/20/82



                                 69
                                                              APPENDIX I
                                                              Page 24 of 33
                             REPORT REGISTER
                             INTERNAL AUDITS
                                                                 Date of
Number                                 Title                     Report
A30025c/9/F/82l022     Letter Report - Proposed Award of
                       Lease Extension, 4727 Wilshire
                       Boulevard, Los Angeles, California       10/22/82
50-20160-07-07         Unliquidated Obligations and Yearend
                       Spending, FY 1981                        10/26/82
40-20573-02-02         Buildings Manaqement Field Office,
                       Trenton, New Jersey, Region 2            10/26/82
3N-203 5-09-09         Small Purchases Program, Office of
                       Personal Property. Reqion 9              10/27/82
4E-12055-01-01         Letter Report - Review of the
                       Planning and Decision Process
                       Relative to the Initial Stages of
                       the Proposed Boston Federal Building     10/28/82
40-20412-07-07         Internal Controls Need To Be
                       Strengthened at the Dallas Field
                       Office, Region 7                         10/28/82
5D-20226-07-07-F(1)    Short Form Followup - Regional
                       Regional Imprest Funds                   10/29/82
4F-20523-11-11         Controls Over Firearms and Badges
                       Need To Be Improved                      10/29/82
4G-20966-09-09         Letter Report - Test of Lease Data,
                       Region 9                                 10/29/82
4M-20746-11-11         Letter Report - Implementation of
                       the Recommendations of the Washington
                       Telecommunications Interagency
                       Committee Report                      11/01/82
4G-00504-00-1l-F(1 )   Followup - Significant Improvements
                       Need To Be Made in Administering
                       GSA Controlled Space, Central Office
                       and the National Capital Region          11/08/82
30-20133-09-09         Inventory Management, Region 9           11/08/82
5D-00668-11-l1-F(1)    Followup - Improved Controls
                       Needed Over the Processing of
                       Federal Buildings Fund Payments          11/12/82
40-20572-02-02         Buildings Management Field Office,
                       Whitestone, New York, Region 2           11/16/82

                                  70
                                                                      APPENDIX I
                                                                      Page 25 of 33
                                      REPORT REGISTER
                                      INTERNAL AUDITS
                                                                         Date of
Number                         _______________T_i_t_l_e________          Report
A30081a/W/F/821117             Letter Report - Proposed Award of
                               Succeeding Lease, Thomas Circle
                               South, 1121 Vermont Avenue, N.W.,
                               Washington, D.C., Lease No.
                               GS-l1B-20083                             11/17/82
A300Glb/8/F/82ll19             Letter Report - Proposed Award of
                               Lease, Kerr-McGee lab Building,
                               5960 N. McIntyre Street, Golden,
                               Colorado                                 11/19/82
A30061a/8/F/821l19             Letter Report - Proposed Award of
                               Lease, Western Management Building,
                               1772 South 300 West, Salt lake
                               City. Utah                               11/24/82
9B-12048-51-02                 Construction Contract Change Orders,
                               Region 2                                 11/26/82
50-20155-02-02                 Review of FY 19B1 Yearend Obligations
                               Recorded in the Federal Buildings
                               Fund and Other Appropriated Funds
                               in Region 2                           11/26/82
4 ~'1 - 1 0 7 5 5 - a9 - 0 9   Administration of Automatic Data
                               Processing (ADP) Service Contracts,
                               Region 9                                 11/29/82
50-20162-09-09                 Unliquidated Obligations, FY 1981,
                               Region 9                                 11/30/82
4E-20175-04-04                 GSA Should Terminate the Nashville
                               Union Train Station Project              11/30/82
5T-20510-01-01                 Federal Archives and Records Center,
                               Waltham, Massachusetts, Region 1         11/30/82
4r~-2074B-00-22                Letter Report - Proposed Sole-
                               Source Award to MITRE                    12/01/82
4G-20BI3-04-04                 Region 4 Should Reevaluate
                               Architect/Engineer Retrofit
                               Proposals                                12/01/82
A3004ge/7/F/82l203             Letter Report - Proposed Award
                               of lease, 1661 Canal Street,
                               New Orleans, Louisiana                   12/03/82



                                            71
                                                             APPENDIX I
                                                             Page 26 of 33
                               REPORT REGISTER
                               HITERNAL AUDITS
                                                                Date of
Number                                Title                     Report
                         ------------~~~------------------
A30106/4/F/82l206        Lease for the Social Se~urity
                         Administration's Office of
                         Hearings and Appeals, Nashville,
                         Tennessee                             12/06/82
4B-20410-09-09           PBS/IS Lease Assignment Data,
                         Region 9                              12/08/82
A30081B/W/F/821209       Letter Report - Proposed Award
                         of Succeeding Lease, 633 Indiana
                         Avenue, N.W., Washington, D.C.,
                         Lease No. GS-llB-20069                12/09/82
50-20164-11-11           Yearend Closing - Additional
                         Improvements Needed                   12/09/82
A30052/R/F/82l2l0        Solicitations for Leased Space
                         to House the Southern Division
                         of Navy's Facilities Engineering
                         Command                               12/10/82
3U208920101/l/F/821211   Letter Report - Boston Inter-
                         agency ~1otor Pool, Region 1          12/11/82
A301ll/Z/F/821213        Letter Report - FSS-28 Systems
                         Development Project                   12/13/82
A30029/4/F/821214        Letter Report - Pending Lease
                         Award, Lease No. GS-04B-22422
                         MEPS Facility, Jacksonville,
                         Florida                               12/14/82
4I107821111/W/F/821215   Improvements Need To Be Made
                         in the Procuri ng and Mai ntai n-
                         ing of Security Equipment            12/15/82
A30081D/W/F/821215       Letter Report - Proposed Award
                         of Succeeding Lease, 1745
                         Jefferson Davis Highway,
                         Arlington, Virginia, Lease No.
                         GS-llB-30003                          12/15/82
4G-I0418-06-06-F(2}      Letter Report - Second Imple-
                         mentation Review - Conscientious
                         Lease Administration Could Have
                         Resulted in Substantial Cost
                         Savings to the Government             12/16/82



                                     72
                                                                APPENDIX I
                                                                Page 27 of 33
                               REPORT REGISTER
                               INTERNAL AUDITS
                                                                   Date of
Number                                   Title                     Report
3N-10207-06-06-F(2)      Letter Report - Second
                         Implementation Review - Formal
                         Advertised Procurement Process
                         Would Be Improved With Increased
                         Emphasis on Internal Controls and
                         Greater Adherence to Procurement
                         Procedures                               12/16/82
4G-00688-06-06-F(2)      Letter Report - First Implementation
                         Review - Timely Lease Actions Would
                         Improve the Effectiveness of
                         the Region 6 Leasing Program            12/16/82
A3U081C/W/F/821221       Letter Report - Proposed Award
                         of Succeeding Lease, 2121
                         Jefferson Davis Highway,
                         Arlington, Virginia, Lease No.
                         GS-llB-30000                             12/21/82
A30166/1/F/821222        Letter Report - Proposed Award
                         of Lease Extension, 100 Summer
                         Street, Boston, Massachusetts,
                         Lease No. GS-01B-(PRA)-03083(NEG)       12/22/82
A30167/4/F/821223        Letter Report - Pending Lease
                         A\vard, 1100 Spring Street, Atlanta,
                         Georgia, Lease No. GS-04B-22428         12/23/82
3C206080404/4/F/821223   Management of Excess Personal
                         Property, Region 4                      12/23/82
4E-12041-11-11           Management of the Social Security
                         Administration, Administrative
                         Headquarters Expansion Project          12/23/82
A30149/l/F/821228        Letter Report - Proposed Award
                         of Lease Nos. GS-01B-(PEL)-03380
                         (NEG') and GS-01B-(PRA)-03029(NEG)
                         for West Warwick, Rhode Island          12/28/82
5D206140909/9/F/821228   Administrative Equipment Fund,
                         Regions 9 and 10                        12/28/82
4E-20559-04-04           Letter Report - Regional Design
                         and Construction Value Engineer-
                         ing Proyram                             12/29/82
A30077/10/F/821229       Letter Report - Proposed Award
                         of Lease No. GS-I0B-05023, Lloyd
                         500 Building, Portland, Oregon          12/29/82
                                    73
                                                               APPENDIX I
                                                               Page 28 of 33
                               REPORT REGISTER
                               INTERNAL AUDITS
                                                                  Date of
Number                                   Title                    Report
A30034/1/F/821230        Letter Report - Buildings
                         Management Operations at the
                         Providence, Rhode Island
                         Field Office                            12/30/82
4M204000707/7/F/821230   Letter Report - Region 7
                         Telecommunication Functions             12/30/82
3V-20711-06-06           Regional Reviews Are Needed
                         to Ensure Carrier Compliance
                         with Negotiated Freight Rates           12/30/82
3C207680707/7/F/821230   Letter Report - Excess
                         Personal Property, Region 7             12/30/82
A30173/2/F/830110        Letter Report - Proposed Award of
                         Lease Extension, 114 Old Country
                         Road, Mineola, New York, Lease
                         No. GS-02B-I0313                        01/10/83
6H-20958-03-21           Review of Allegation of Improper
                         Disclosure of Information - A-76
                         Review of Custodial Services and
                         Elevator Operations. Wilkes-Barre,
                         Pennsylvania                            01/12/83
4F204110505/5/F/83l13    Federal Protective Service Division
                         Operations, Region 5                    01/13/83
3J203880202/2/F/830114   Review of the Contracting Officer
                         Warrant Program, Region 2              01/14/83
3K-20134-09-09           Using Plant Facilities Reports
                         Effectively, Office of Personal
                         Property, Region 9                      01/17/83
A30177/2/F/830118        Letter Report - Proposed Award
                         of Lease, 101 East Post Road,
                         White Plains, New York, Rahmani
                         Construction Corp., Lessor,
                         Lease No. GS-02B-22135                 01/18/83
A30086/6/U/830118        Letter Report - Implementation
                         Review on Improved Reports and
                         Procedures are Needed for
                         Effective Inventory Management          01/18/83
A30178/9/F/830118        Letter Report - Proposed Award
                         of Lease Extension, 11099 La Cienga
                         Bou·levard, Los Angeles, California     01/18/83
                                    74
                                                               APPENDIX I
                                                               Page 29 of 33
                               REPORT REGISTER
                               INTERNAL AUOITS
                                                                  Date of
1Jumber                              Title                        Report
A30185/9/F/830118        Letter Report - Proposed Lease
                         Award, 9100 E. Flair Drive,
                         E1 Monte, California                    01/18/83
3B-00623-11-l1-F{I)      Short Form Implementation Review -
                         Watch Contractors Required to
                         Purchase Government Manufactured
                         Bearings That They Cannot Use           01/21/83
A30225/9/F/830121        Letter Report - Proposed Lease
                         Extension, 201 N. Central Avenue,
                         Phoenix, Arizona                       01/21/83
A30031/6/F/830121        Region 6 May Have Restricted
                         Competition When Obtaining Space
                         for the Armed Forces Recruiting/
                         Examination Station in Kansas City,
                         Missouri                                01/21/83
50205190101/1/F/830121   Financial Processing Deficiencies
                         Exit Within the Federal Building
                         Fund, Region 1                         01/21/83
A30223/10/F/830124       Letter Report - Special Review of
                         PBS/IS Leased Renewal Data             01/24/83
4G-I0587-00-24           Controls Over Costs of Repairs,
                         Alterations, and Improvements
                         in Leased Space                         01/26/83
4D209370101/1/F/830126   Letter Report - Building
                         Management Operations at the
                         Manchester, New Hampshire,
                         Field Office                            01/26/83
4D208530303/3/F/830127   The Norfolk, Virginia, Buildings
                         Manager Needs to Improve
                         Internal Controls and to Better
                         Follow Prescribed Procedures            01/27/83
3JII0831111/W/F/830128   Significant Improvements Are
                         Needed in the Contracting
                         Officer Warrant Program                 01/28/83
4D209110202/2/F/830l31   Buildings Management Field Office,
                         Greater Manhattan, New York,
                         Region 2                                01/31/83



                                    75
                                                                APPENDIX I
                                                                Page 30 of 33
                            REPORT REGISTER
                            I NT ER~j AL AU DITS
                                                                   Date of
Number                                     Title                   Report
A30251/R/U/830201        Second Implementation Review -
                         Audit of Administration of VOTRAKON,
                         Saudi Arabian Construction Project       02/01/83
A30261/4/F/830203        Letter Report - Pending Lease Award,
                         Pershing Point Plaza, Atlanta,
                         Georgia, Lease No. GS-04B-23123          02/03/83
A30081E/W/F/830207       Letter Report - Proposed Supple-
                         mental Lease Agreement No.1,
                         Federal Center Plaza, 400 C Street,
                         S.W., Washington. D.C., Lease No.
                         GS-llB-20054                             02/07/83
7792240909/9/U/830208    Implementation Review - Contracting
                         Procedures and Administrative
                         Controls Over Alterations in
                         Leased Space Need To Be Improved,
                         Region 9                                 02/08/33
3N206010505/5/F/830209   Advertised Procurements, Office of
                         Personal Property, Region 5              02/09/83
A30081F/W/F/830210       Letter Report - Proposed Award of
                         Lease, 806/814 Connecticut Avenue,
                         Washington, D.C., Lease No.
                         GS-llB-30005                             02/10/83
A30287/4/F/830214        Letter Report - Pending Award of
                         Supplemental Agreement No.4 to
                         Lease No. GS-04B-15910, CWC Building,
                         Atlanta, Georgia                      02/14/83
4M206121010/10/F/830214 The Economy and Efficiency of the
                        Current Systems and Programming
                        Service Contract Has Not Been
                        Established, Region 10                    02/14/83
30209250202/2/F/830214   Letter Report - Inventory
                         Procedures and Inventory Observa-
                         tion at Belle Mead Supply Depot,
                         Region 2                                 02/14/83
A30243/10/F/830215       Letter Report - Proposed Award of
                         Lease, Cascade Exchange Building,
                         Portland, Oregon, Lease No.
                         GS-I0B-03931                             02/15/83



                                      76
                                                              APPENDIX I
                                                              Page 31 of 33
                             REPORT REGISTER
                             INTERNAL AUDITS
                                                                 Date of
Number                                   Title                   Report
5D207711010/10/F/830215 Timekeeping Controls and Super-
                        visory Review Practices Need
                        Improvement for More Accurate,
                        Complete, and Reliable Payroll
                        Records, Region 10                      02/15/83
4M203980202/2/F/830217   Proliferation of Word Processing
                         Equipment. Region 2                    02/17/83
40205740202/2/F/830218   Buildings Management Field Office,
                         Belle Mead, New Jersey, Region 2       02/18/83
A30255/2/F/830224        Letter Report - Delay in Moving
                         HUD Offices in Newark, New Jersey      02/24/83
A30295/9/F/820224        Letter Report - Proposed Lease
                         Award, 211 Main Street,
                         San Francisco, California              02/24/83
4D209060505/5/F/830224   Buildings Manager Field Office
                         Revie\'/, Springfield, Illinois,
                         Region 5                               02/24/83
A30272/4/F/830225        Letter Report - Overpayment of
                         Water Bills on Lease Nos.
                         GS-04B-15456 and GS-04B-20016          02/25/83
40209120707/7/F/830228   Regional Controls Over New Orleans
                         Field Office Procurements are
                         Adequate and Effective                02/28/83
A30192/Z/F/830302        Letter Report - Interim Report
                         on the Personnel Information
                         Resources System (PIRS)               03/02/83
A30252/7/F/830303        Letter Report - Proposed Purchase
                         of Building, 555 Griffin Square,
                         Dallas, Texas                          03/03/83
A30332/7/F/830304        Letter Report - Proposed Award
                         of Lease, 1415 North Loop West,
                         Houston, Texas                        03/03/83
A30331/7/F/830307        Letter Report - Proposed Award
                         of Lease, 10910 N. Central
                         Expressway, Dallas, Texas             03/07/83
A30320/10/F/830308       Letter Report - Preaward Lease
                         Review, Sea-Tac Office Center,
                         Seattle, Washington                   03/08/83
                                    77
                                                              APPENDIX I
                                                              Page 32 of 33
                            REPORT REGISTER
                            INTERNAL !~UDITS
                                                                 Date of
Number                                   Title                   Report
A30010j7jFj830311        Review of Real Property
                         Appraisal Staff Operations             03/11/83
A30289j4jFj8303l1        Letter Report - Determine Total
                         Contract Cost and Unpaid Amount
                         Due on AjE Contract No.
                         GS-04B-13278(NEG) with Finch,
                         Alexander, Barnes, Rothschild
                         and Paschal, Inc. (FABRAP)             03/11j83

A30314j1jFj830314        Letter Report - Proposed Award
                         of Lease, 120 Boylston Street,
                         Boston, Massachusetts, Lease
                         No. GS-01B-03384                       03/14/83
3U206111010jl0jFj830317 Seattle Motor Pool's Adherence
                        to Prescribed Procedures Will
                        Lead to Improved Controls Over
                        Vehicle Repairs, Petroleum and
                        Parts                                   03/17/83
5D209211111jWjFj830317   Administration of Fuel Billings
                         in the National Capital Region         03/17/83
A30202j2jFj830317        Letter Report - Proposed Award
                         of Lease, 250 Fulton Avenue,
                         Hempstead, New Y~rk, Lease No.
                         GS-02B-22137                           03/17/83
3BI075b0202j2jFj830318   GSA's Stockpile of Precious
                         Metals and Diamonds                    03/18/83
3C203741111jWjFj830318   Internal Controls Within the
                         Surplus Sales Section Need
                         Significant Improvement                03/18/83
A30358j9jFj830322        Letter Report - Preaward Audit of
                         a Succeeding Lease, 1275 Market
                         Street, San Francisco, California      03/22/83
A30211j5jlj830322        Interim Letter Report - Operations
                         of Chicago Federal Archives and
                         Records Center (FARC)                  03/22/83
4G107840505j5jFj830323   Letter Report - Lease Award and
                         Administration, Region 5               03/23/83
A30099j2jFj830323        The Floyd Bennett Field Tele-
                         c.ommunications System Project         03/23/83

                                    78
                                                               APPENDIX I
                                                               Page 33 of 33
                            REPORT REGISTER
                            ItHERNAL AUD ITS
                                                                  Date of
Number                                   Title                    Report
A30349/W/U/830323        Implementation Review - Regional
                         Management of the Public Buildings
                         Service/Information System Needs
                         Improvement                             03/23/83
6AI07980021/0/F/830324   GSAls Implementation of the
                         Integrated Ceiling and Background
                         System Concept                          03/24/83
4G10902llll/W/F/830325   Opportunities Exist to Improve the
                         Administration of the Public
                         Buildings Cooperative Use Act
                         of 1 976                                03/25/83
30206050202/2/F/830325   Export Operations at the Belle Mead
                         Depot, Reg i on 2                       03/25/83
4DI023lllll/W/U/830328   Short Form Implementation Revie~~ -
                         Building Management Operations at
                         the Justice Field Office Could Be
                         Improved                                03/28/83
4G209690024/R/F/830328   Review of Controls Over Lease
                         Renewal Dates                           03/28/83
4G20726111l/W/F/830330   Outleasing of Space in the Old Post
                         Office Building, Washington, D.C.       03/30/83
A3U265/F/F/830330        Controls Over Unused Transportation
                         Tickets Purchased With Government
                         Transportation Requests                 03/30/83
5D201660606/6/F/83033l   Operating Efficiency and Management
                         Controls at the National Payroll
                         Center Can Be Improved                  03/31/83
A30310/6/F/830331        Letter Report - The Physical
                         Inventory Count of the Kansas City
                         Self-Service Store Was Performed
                         in Accordance with Prescribed
                         Procedures                              03/31/83
9B202155lll/W/F/830331   The Administering, Managing, and
                         Reporting Practices of Construction
                         Contract Change Orders Need
                         Improvements in the National
                         Capital Region                          03/31/83



                                    79
                                                           APPENDIX II
                                                           Page 1 of 4
                             REPORT REGISTER
                            INSPECTION REPORTS
                                                            Date of
Number                _____________T_i_t_le                 Report
S-PBS-C-17-82     Letter Report - Construction of a
                  New Courthouse Annex to the Existing
                  Courthouse in Miami, Florida,
                  Contract No. GS-04B-81005                10/07/82
W-PBS-C-01-82     Inspection of Project RCA 20256-
                  Seal i ng of Exteri or Concrete Panel
                  Joints, Federal Office Building and
                  Post Office, 777 Sonoma Avenue,
                  Santa Rosa, California                   10/08/82
NC-FSS-06-82      Letter Report - Contracts for Paper
                  Bags Awarded to Great Plains Bag
                  Corporation                              10/19/82
~J-FSS-l1-   82   Inspection of Need for Price
                  Analysis on Competitive Bids             10/28/82
W-PBS-C-19-82     Letter Report- Building Expansion of
                  the National Archives and Records
                  Storage Center, San Bruno, California,
                  Project No. ICA 20245                    10/29/82
NC-PBS-L-13-82    Five Lafayette Fisher Properties in
                  Chicago, Illinois                        10/29/82
NC-PBS-L-07-82    Veterans Administration Clinic,
                  Evansville, Indiana, Contract No.
                  GS-05B-12l73                             11/02/82
NC-PBS-C-01-82    Review of Contract Administration
                  and Work-in-Place, Interior Remodeling
                  and Roof Repair, U.S. Post Office and
                  Courthouse, Levenworth, Kansas           11/08/82
S-P8S-C-16-82     Letter Report - U.S. Border Station.
                  Laredo, Texas (Followup of Report
                  No. S-PBS-C-02-82, dated 3/1/82)         11/10/82
NC-FSS-03-82      Contracts for Plastic Bags Awarded
                  to Skytop Plastics, Inc.                 12/03/82
S-PBS-C-23-82     Security System Installation,
                  Richard B. Russell Federal Building,
                  Atlanta, Georgia                         12/06/82
NC-FSS-05-82      Contracts for Paper Bags Awarded to
                  Duro Paper Bag Manufacturing Company     12/16/82

                                  80
                                                             APPENDIX II
                                                             Page 2 of 4
                                REPORT REGISTER
                               INSPECTION REPORTS
                                                               Date of
Number                                    Title                Report
PBS-C-11-82          Letter Report - Alterations to
                     Office Space, FOB-lOA, 800 Independence
                     Avenue, S.W., Washington, D.C.,
                     Contract No. GS-llB-18338               12/23/82
NC-PBS-P-27-82       Letter Report - Six Lease Alterations
                     Sites                                    12/29/82
A30073/4/F/821229    Letter Report - Space Alteration,
                     USPO/CT, Huntsville, Alabama,
                     Contract No. GS-04B-82019                12/29/82
A300l6/9/F/830ll7    Review of Tool Kit Contracts for
                     Compliance with the Buy American
                     Act                                      01/17/83
NC-FSS-11-82         Letter Report - Procurement of
                     Grocery Bags                             01/18/83
A30l72/W/F/830l25    Letter Report - Contract to Repair
                     Parapet Walls, J. Edgar Hoover Build-
                     ing, Washington, D.C., Contract No.
                     GS-03B-88358                             01/25/83
PBS-P-12-82          Alterations to the Second and Third
                     Floors, Oceanographic Building,
                     Suitland, Maryland, Contract No.
                     GS-llB-08247                             01/27/83
NC-PBS-B-28-82       Technical Evaluation of the Pre-
                     examination Process of Patent
                     Applications, Patent and Trademark
                     Office, Washington, D.C.                 01/28/83
NC-PBS-B-Ol-82       U.   S. Courts Space Alterations,
                     U.   S. Courthouse, Des Moines, Iov/a    01/31/83
\~-PBS-C-12-82       Construction of 5th Floor Courtroom,
                     U. S. Courthouse, Los Angeles,
                     California                               01/31/83
SPBSE0483/4/F/8302l0 Energy Conservation Program at
                     IRS Service Center, Chamblee,
                     Georgia                                  02/10/83
A30l80/9/F/8302ll    Letter Report - West Los Angeles
                     Field Office                             02/11/83
A30150/T/F/8302l6    Letter Report - Bison Instrumemts,
                     Inc.                                     02/16/83
                                     81
                                                              APPENDIX II
                                                              Page 3 of 4
                               REPORT REGISTER
                              INSPECTION REPORTS
                                                                Date of
Number                                    Title                 Re port
SPBSC1882/4/F/8302l8   Alterations to the Richard B.
                       Russell Federal Building, Atlanta,
                       Georgia, Contract No.
                       GS-04B-82005                            02/18/83
SFSS1482/4/F/830222    Administration of Contract No.
                       GS-OOC-70lll, Computer Data
                       Systems, Inc., at the Interagency
                       Data Systems Facility, Huntsville,
                       Alabama                                 02/22/83
l4-PBS-C-16-8l         Project RCA 20295, Mi scellaneous
                       Alterations, Improvements and
                       Handicapped Provisions at the
                       U.S. Court of Appeals and Post
                       Office, 7th and Mission Streets,
                       San Francisco, California               02/24/83
NC-PBS-B-05-82         Inspection of New 1st Floor Facility
                       for U. S. ~1arshall's Federal Building,
                       U. S. Courthouse, Detroit, Michigan     02/28/83
A30080                 Miscellaneous Improvements,
                       Federal Center, St. Louis, Missouri     02/28/83
A300l9/T/F/830303      Inspection of Composite Floor Beam
                       Problems and Related Structural
                       Items, U. S. Courthouse and Federal
                       Building, San Jose, California          03/03/83
NCPBSB0682/5/F/830304 Space Alterations, Federal Building,
                      U.S. Courthouse, Cedar Rapids, Iowa      03/04/83
PBSB0682/W/F/830307    Letter Report - Renovation of
                       Federal Building, 320 1st Street,
                       N.W, Washington, D.C., Contract
                       No. GS-03B-78080                        03/07/83
A30207/5/F/8303l5      Letter Report - Contract Administra-
                       tion and Work-in-Place Space
                       Alterations, Federal Building,
                       U.S. Courthouse, Davenport, Iowa,
                       Contract No. GS-06B-13440              03/15/83
A30258/5/F/8303l5      Letter Report - Contract Administra-
                       tion and Work-in-Place Service
                       Center Replacement System Project,
                       Federal Building, Kansas City,
                       Missouri                                03/15/83

                                    82
                                                                       APPENDIX II
                                                                       Page 4 of 4
                                   REPORT REGISTER
                               114 SPECT ION REP 0 RTS
                                                                         Date of
Number                                   Title                           Report
                                ----------------------------
NCPBSL0382/5/F/830316 Letter Report - Veterans
                      Administration Clinic and Social
                      Security Administration Office,
                      Canton, Ohio, Contract No.
                      GS-05B-12503                                      03/16/83
A30107/9/F/830316      Alleged Waste in Proposed Carpet
                       Replacement at the Social Security
                       Administration, Western Program
                       Service Center, 1221 Nevin Avenue,
                       Richmond, California                             03/16/83
A30071/9/F/830318      Letter Report - East Bay Field
                       Office, 1515 Clay Street, Oakland,
                       California                                       03/18/83
NCFSSOI82/T/F/830322   Inspection of Solicitations for
                       Plastic Bags                                     03/22/83
PBSC0882/W/F/830323    Letter Report - Renovation of
                       Naval Intell i gence Command (NIPSSA)
                       Computer Room, Oceanographic
                       Building, Suitland, Maryland,
                       Contract No. GS-I1B-08248                        03/23/83
PBSB1782/W/F/830331    Lease/Construction of the EPA
                       Lab 0 rat 0 r y, Ann a pol is, r~ a r y 1and,
                       Lease No. GS-03B-70043                           03/31/83




                                         83
                                                      APPENDIX III
                                                      Page 1 of 2

                          DELINQUENT DEBTS

GSA's Credit and Finance Branch, Office of Finance, provided
the information presented in this section.
GSA's Non-Federal Debt Collection Activity
During this period, GSA embarked on a number of efforts to
improve its management reporting, the most ambitious of
which is the automation of non-federal receivables. At this
juncture, the information required for the major reporting
requirements is compiled manually. GSA is in the process of
converting all funds to the National Electronic Accounting
and Reporting (NEAR) System. Included in this systems effort
is the development of a new accounts receivable module, which
is being designed to accommodate both internal and external
receivable reporting requirement data elements. This long
range effort (1987) includes the development of a fully in-
teractive system which would greatly facilitate the retrieval
of accounts receivable/debt collection data. Numerous meetings
have been held regarding both federal and non-federal reporting
requirements during the October to March period.
Another effort that came to fruition was GSA's initiative to
el iminate further del inquencies created by its tax return
reproduction program. GSA had recommended to the Internal
Revenue Service (IRS) that there be a prepaid flat fee,
rather than a billed base and per-page fee. While reviewing
this recommendation, the IRS decided to take over the entire
program in October 1983 with the exception of the reproduction
aspects. The IRS will enter into a reimbursable agreement
with GSA for these reproduction services.
GSA also initiated procedures to accommodate the provlslons
of the Office of Management and Budget's (OMB) Circular A-50
dated September 29, 1982, entitled "Audit Follow-up." On
December 22,1982, GSA issued GSA Order ADM 2030.2A, IIAudit
Resolution and Followup System," which defined staff respon-
sibilities for audit resolution and follow-up procedures.
Non-Federal Receivables
Because GSA is currently operating under a manual system,
data on non-Federal receivables for the period of October 1,
1982 to March 31, 1983 was not available at the time of this
report's publication. Consequently, six-month data for the
period July 1, 1982 through December 31, 1982 is provided.




                                 84
                                                                APPENDIX III
                                                                Page 2 of 2

                       As of                  As of
                    June 30, 1982        December 31, 1982      Difference
Total Amounts
Due GSA             $ 69,128,915           $ 64,009,674         $5,119,241
Amount Delinquent   $ 10,709,819           $   9,082,377        $1,627,442

Total Amount Written Off as Uncollectible
Between July 1, 1982 and December 31, 1982                 $2,106,352

As the data indicates, during the six-month period dating from
July 1 through December 31, 1982, GSA reduced its non-federal
delinquency from $10.7 million to $9.1 million. Of this
$9.1 million, $1.3 million, or 14 percent, has been referred
to the Department of Justice. An additional $2.8 milllion,
or 31 percent, is in formal dispute within the Agency, i.e.,
before the GSA Board of Contract Appeals. Another $2.6 mil-
lion, or 29 percent, is comprised of principal and interest
on real estate credit sales.
GSA is responsible for collecting approximately $5 billion a
year in federal and non-federal receivables. Its non-federal
receivables comprise less than 10 percent of this activity.
As of December 31, 1982, $64 million was outstanding, which
includes the $9.1 million dollars considered delinquent, and
45 percent of which is either in formal dispute or has been
referred to the Department of Justice.
In keeping with its ongoing practice of concentrating on areas
with the highest delinquencies, excess cost claims were re-
duced by almost $900 thousand dollars during July through
December.




                                    85
